<html>
<title> - ENTREPRENEURIAL ASSISTANCE: EXAMINING INEFFICIENCIES AND DUPLICATION ACROSS FEDERAL PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 ENTREPRENEURIAL ASSISTANCE: EXAMINING INEFFICIENCIES AND DUPLICATION 
                        ACROSS FEDERAL PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 20, 2013

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Small Business Committee Document Number 113-007
              Available via the GPO Website: www.fdsys.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-171                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                       BLAINE LUETKEMER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director














                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

William B. Shear, Director, Financial Markets and Community 
  Investment, U.S. Government Accountability Office, Washington, 
  DC.............................................................     4
Michael A. Chodos, Associate Administrator for Entrepreneurial 
  Development, Office of Entrepreneurial Development, U.S. Small 
  Business Administration, Washington, DC........................     5
Doug O'Brien, Deputy Under Secretary for Rural Development, 
  United States Department of Agriculture, Washington, DC........     7

                                APPENDIX

Prepared Statements:
    William B. Shear, Director, Financial Markets and Community 
      Investment, U.S. Government Accountability Office, 
      Washington, DC.............................................    28
    Michael A. Chodos, Associate Administrator for 
      Entrepreneurial Development, Office of Entrepreneurial 
      Development, U.S. Small Business Administration, 
      Washington, DC.............................................   152
    Doug O'Brien, Deputy Under Secretary for Rural Development, 
      United States Department of Agriculture, Washington, DC....   157
Questions and Answers for the Record:
    Mr. William Shear............................................   163
    Mr. Michael Chodos...........................................   167
    Mr. Doug O'Brien.............................................   177
Additional Material for the Record:
    Memorandum of Understanding between the U.S. Small Business 
      Administration and the U.S. Department of Agriculture......   189
    C.E. Rowe, President/CEO, Association of Small Business 
      Development Centers........................................   195

 
 ENTREPRENEURIAL ASSISTANCE: EXAMINING INEFFICIENCIES AND DUPLICATION 
                        ACROSS FEDERAL PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:02 p.m., in Room 
2360, Rayburn House Office Building, Hon. Sam Graves [Chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Luetkemeyer, 
Tipton, Hanna, Huelskamp, Schweikert, Collins, Velazquez, 
Schrader, Clarke, Chu, Payne, and Murphy.
    Chairman Graves. Good afternoon, everyone. I call this 
hearing to order, and I want to thank everyone for being with 
us today.
    Today America's national debt has surpassed $16.7 trillion, 
and, according to the Congressional Budget Office, each of the 
past 4 years, Federal spending has been between $3.5 trillion 
and $3.6 trillion. It is Congress' duty to put our fiscal house 
in order, reduce spending, and stabilize our debt to ensure 
prosperity in our Nation for future generations.
    In order to do this, we must ensure that taxpayer dollars 
are being spent wisely and not on overlapping, fragmented, 
wasteful, or duplicative Federal programs. It is this 
Committee's job to examine each Federal program that claims to 
help entrepreneurs, with a specific focus on the Small Business 
Administration, to ensure that necessary programs remain intact 
while advocating for the elimination of those that are 
redundant and ineffective.
    Unfortunately, it has become clear that the numerous 
entrepreneurial assistance programs run by the Federal 
Government are all engaging in similar activities with no true 
metrics to determine which programs are truly beneficial to 
entrepreneurs. Recent reports by the Government Accountability 
Office have identified 52 programs across 4 agencies aimed at 
helping entrepreneurs, but agencies are not adequately 
measuring the effectiveness and collaboration among these 
agencies is lacking. That makes figuring out what is helpful 
and what should be consolidated and what should be cut much 
more difficult.
    On this Committee, we understand the value of encouraging 
entrepreneurs and facilitating the creation of new businesses. 
However, I am very skeptical that all 52 Federal programs aimed 
at entrepreneurs are having a significant enough impact to 
justify their costs. And a further question, how any individual 
seeking to start a small business can look at 52 programs and 
know which is best suited for them or how the different 
programs fit together. I certainly can't imagine having the 
time to focus on establishing a company while navigating a 
disjointed maze of fragmented and overlapping Federal programs.
    And let me be clear about this: There is an immediate need 
to reduce the Federal budget, but even if the United States 
were not facing staggering debt levels, program inefficiencies 
would need to be eradicated to ensure entrepreneurs were 
receiving the best help.
    Today I hope our witnesses can shed light on some of these 
programs and comment on the GAO's findings.
    I thank all of you for taking time out of your busy 
schedules to be here.
    And I now yield to Ranking Member Velazquez for her opening 
statement.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Across the Federal Government, departments, agencies, and 
bureaus of all sizes are working to help small businesses. 
Their efforts run the gamut from providing loans to farmers, to 
helping manufacturers gain access to foreign markets, to grants 
improving infrastructure.
    Many of these programs have become essential to our 
Nation's small businesses. However, others have been proven 
less necessary, duplicative, and even wasteful. Ensuring that 
these programs work better together is important, not just for 
taxpayers but also for small businesses that depend on them.
    In administering these programs, it is critical that 
agencies maximize efficiency and minimize waste. In practice, 
this means ensuring that rules and regulations are clearly 
articulated, that a framework for evaluation is in place, and 
that the initiatives are not simply mirroring other agencies' 
work.
    It is imperative that programs are continually evaluated, 
and it should not take a fiscal crisis to do so. This 
Committee, both Democrats and Republicans, have repeatedly 
pinpointed programs at SBA that are wasteful and duplicative, 
irrespective of budgetary politics. Our views and estimates 
have annually identified ten of millions in wasteful spending 
that could be reinvested in other valuable programs.
    GAO has also been a regular in this room, as their reports 
have shown that waste, fraud, and abuse are all too common 
within the agency. From the HUBZone programs, to disaster 
lending, to coordination between the SBA and Agriculture, the 
GAO has recommended improvements, many of which have been 
enacted into law.
    Today I am looking forward to not only hearing GAO's 
recommendations about government-wide coordination of 
entrepreneurial assistance programs but also the reactions of 
the SBA and USDA. Oversight is not only a responsibility of 
Congress but also for the agencies we oversee. And in this 
case, for this Committee, it means the Small Business 
Administration.
    Unfortunately, in this regard, the agency has not met 
expectations. It has established and authorized pilot programs 
without any performance measures. While these initiatives cost 
taxpayers millions of dollars, the agency has failed to use 
objective metrics to quantify their success or failure.
    In the last 3 years, SBA requested funds for seven pilot 
programs, including the Small Loan Advantage and Community 
Advantage programs, the Impact Investing and Early-Stage 
Innovation Fund, regional clusters, the Distance Learning 
Portal, and the Emerging Leaders programs. The last three of 
these alone cost $50 million. That is more than what we spent 
on the Women's Business Centers, an initiative that is 
authorized, has performance measures, and is regularly overseen 
by Congress. While the original intent may be admirable, once 
launched, these pilot programs often take on a life of their 
own, drawing funds away from proven initiatives.
    Even among programs that we know work, there is a need for 
better harmonization. In its recent report, GAO found that 
agencies do not coordinate their services. If they did, the 
government could lower administrative costs and leverage each 
program's unique strengths.
    Steps must be taken to ensure that agencies are conducting 
meaningful evaluations of their initiatives rather than simply 
checking the box. If a program is not working, it should either 
be fixed or defunded. Doing so will ensure taxpayers get the 
biggest bang for their buck and, equally important, that small 
businesses' needs are met. Today, reducing duplication and 
improving performance are not just nebulous, bureaucratic 
catchphrases. When applied, they mean better services for 
entrepreneurs and greater job creation for the economy.
    Everyone here recognizes the importance of entrepreneurship 
to our economic recovery. As we seek ways to make economic 
development programs more efficient, we cannot afford to 
shortchange small businesses. Instead, our goal should be 
ensuring that these programs work in concert together, 
delivering small businesses the help they need.
    I look forward to today's testimony, and I thank all the 
witnesses for being here.
    Thank you, Mr. Chairman. I yield back.
    Chairman Graves. Thank you very much.
    Our first witness Bill Shear, the Director of Financial 
Markets and Community Investment at the Government 
Accountability Office.
    And, Mr. Shear, I know you testified before our 
Subcommittee on Contracting and the Workforce just yesterday, 
so we appreciate you coming to the Hill twice in 1 week. Thank 
you very much. Look forward to hearing from you.

STATEMENTS OF WILLIAM B. SHEAR, DIRECTOR, FINANCIAL MARKETS AND 
 COMMUNITY INVESTMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
 WASHINGTON, D.C.; MICHAEL A. CHODOS, ASSOCIATE ADMINISTRATOR 
  FOR ENTREPRENEURIAL DEVELOPMENT, OFFICE OF ENTREPRENEURIAL 
 DEVELOPMENT, U.S. SMALL BUSINESS ADMINISTRATION, WASHINGTON, 
     D.C.; DOUG O'BRIEN, DEPUTY UNDER SECRETARY FOR RURAL 
 DEVELOPMENT, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

                 STATEMENT OF WILLIAM B. SHEAR

    Mr. Shear. Okay. And thank you. And so the joke about it 
is, I was in the same chair yesterday, and it is really quite 
comfortable. So, at any rate, thank you very much.
    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee, I am pleased to be here this afternoon to 
discuss our work on economic development programs that provide 
entrepreneurial assistance. This statement is based on our 
report issued in August 2012 and information we have received 
from the four agencies since our report's issuance.
    We reported information on 52 programs at SBA, USDA Rural 
Development, Commerce, and HUD. In summary, we found the 
following.
    First, Federal programs that support entrepreneurs are 
fragmented and overlap based on the type of assistance they are 
authorized to offer, such as financial and technical 
assistance, and the type of entrepreneur they are authorized to 
serve. Much of the overlap among these programs tends to be 
concentrated among programs that provide a broad range of 
technical and financial assistance.
    In addition, while agencies have taken steps to collaborate 
more in administering these programs, they have not implemented 
a number of good collaborative practices we have previously 
identified. And some entrepreneurs struggle to find the support 
they need. The GPRA Modernization Act's crosscutting framework 
requires that agencies collaborate in order to address issues 
such as economic development that transcend more than one 
agency. And it directs agencies to describe how they are 
working with each other to achieve their program goals.
    As my second summary statement, I will offer the following: 
Agencies do not track program information on entrepreneur 
assistance activities for many programs--a practice that is not 
consistent with government standards for internal controls.
    In addition, we found that 33 of the 52 programs had set 
goals for their programs, but 19 of these 33 programs did not 
meet any of their goals or only met some of their goals. 
Further, agencies have conducted evaluations of only 20 of the 
52 active programs since 2000. As a result, information on 
program efficiency and effectiveness is limited, and scarce 
resources may be going toward programs that are less effective.
    The GPRA Modernization Act requires agencies to set and 
measure annual performance goals and recognizes the value of 
program evaluations because they can help agencies assess 
programs' effectiveness and improve program performance. In 
summary, without enhanced collaboration and coordination, as 
well as more robust program information, agencies may not be 
able to administer programs in the most effective and efficient 
manner.
    Based on our findings, we recommended that the four 
agencies and OMB explore opportunities to enhance collaboration 
among programs both within and across agencies and that the 
four agencies track program information and conduct more 
program evaluations. The agencies neither agreed nor disagreed 
with the recommendations but did provide information on their 
plans to address our recommendations.
    Chairman Graves and Ranking Member Velazquez, this 
concludes my prepared statements. I look forward to answering 
questions you may have.
    Chairman Graves. Thank you, Mr. Shear.
    Our next witness is Michael Chodos. He is the Associate 
Administrator for Entrepreneurial Development within the Office 
of Entrepreneurial Development at the SBA. In this capacity, 
Mr. Chodos is responsible for overseeing SBA's counseling and 
training programs for entrepreneurs.
    And I appreciate you being with us today.

                 STATEMENT OF MICHAEL A. CHODOS

    Mr. Chodos. Thank you.
    Chairman Graves, Ranking Member Velazquez, and 
distinguished members of the Committee, thank you for inviting 
me to testify about the Small Business Administration's work to 
enhance collaboration, avoid duplication, and improve data 
tracking within our entrepreneurial assistance programs. I look 
forward to discussing our extensive collaboration with other 
Federal agencies and our ongoing efforts to evaluate our own 
programs and to make them more streamlined, effective, and 
efficient.
    Entrepreneurs are the foundation of America's economic 
success, and SBA is there with the services and support small 
businesses need to start, grow, and create jobs. In the past 
year alone, SBA and its resource partners counseled and trained 
over 1 million small businesses and helped thousands of new 
businesses start.
    SBA and its network of lenders also supported over $30 
billion in loans to small businesses through its 7(a) and 504 
loan programs, and we helped agencies across the Federal 
Government to put over $90 billion in Federal contracts in the 
hands of small businesses. SBA also leveraged a record $3.3 
billion in capital for small businesses through the SBIC 
program and, since 2009, has supported over $3.3 billion in 
lending in our export loan programs.
    To implement its programs and disaster support services, 
SBA connects directly with small businesses in communities 
across America. It does so directly through its nationwide 
network of SBA district offices, Small Business Development 
Centers, Women's Business Centers, SCORE chapters, and Veterans 
Business Opportunity Centers.
    And because of so many of SBA's programs are delivered in 
partnership with others, we also help small businesses every 
day by collaborating with our very large network of private 
lenders, microlenders, and investment funds in our lending and 
capital programs, with Federal and State partners in our 
procurement, Small Business Innovation Research, and export 
programs, and with university and nonprofit partners in several 
of our innovative programs for supporting veterans 
entrepreneurship.
    We work collaboratively every day to break down silos and 
to work effectively with our Federal, State, and private-sector 
partners. But we know that there are always further 
opportunities to use taxpayer dollars wisely and to make things 
simpler and easier for our small-business constituents. We know 
that navigating the Federal Government and its many programs 
and services can be daunting to a small business.
    For that reason, SBA and our network of partners act as the 
front door to Federal support for small businesses. We help 
them access our own programs and services and also act as a 
community-based and online guide to help small businesses get 
the help they need from whichever Federal, State, or local 
partners can serve that small business best.
    Over the past several years, SBA has focused intensively on 
opportunities for improving collaboration and coordination 
within its own network. We want to make sure that network is 
operating as efficiently and collaboratively as possible.
    SBA has participated in and led efforts to collaborate and 
share resources with USDA, Department of Commerce, and HUD. For 
example, SBA has been working with the Department of Commerce 
and numerous other Federal agencies on developing Business-
USA.gov, the comprehensive one-stop platform for businesses 
looking to access information, resources, programs, and 
services available through the Federal Government.
    While more work remains to be done, I am very proud of our 
accomplishments and progress in the area of collaboration to 
date. A great deal of the credit should go to our SBA district 
office leadership; national, State, and local leadership in our 
SBDC, WBC, and SCORE networks; and our cluster administrators 
and other partners.
    In addition to our work fostering collaboration within our 
own SBA family and with other agencies, the agency has been 
working intensively on ways to improve the measurement and 
evaluation of our programs. Starting in 2012, OED, which is the 
office which I lead at the agency, undertook a comprehensive 
modernization project for our resource partner data-collection 
system, known as EDMIS, to enhance current data fields, improve 
budget and performance integration capabilities, and expand 
reporting capabilities.
    Additionally, we are also working with all of our resource 
partners to identify and align all of our respective surveying, 
polling, and impact-study methodologies to harmonize the data 
collected through these efforts and to have a coordinated set 
of data sources between the agency and its partners.
    In closing, I want to thank you for the opportunity to 
testify before you today. SBA, its resource partners, and its 
many lending, Federal-sector, and other partners share the 
common goal of collaborating and supporting and strengthening 
America's 28 million small businesses. Through enhanced 
collaboration, improved metrics, and new service delivery 
tools, we are building an entrepreneurial ecosystem for the 
21st century and beyond.
    I look forward to answering any questions you may have. 
Thank you.
    Chairman Graves. Thank you, Mr. Chodos.
    Our final witness is Doug O'Brien, who is the Deputy Under 
Secretary for Rural Department at the U.S. Department of 
Agriculture. Mr. O'Brien was appointed to this position in 
August of 2011 and oversees efforts to promote economic 
development throughout our rural communities.
    Mr. O'Brien, I apologize I wasn't able to meet with you on 
Monday. My flight was delayed. But I appreciate you making the 
effort, and welcome to the Committee.

                   STATEMENT OF DOUG O'BRIEN

    Mr. O'Brien. Chairman Graves, Ranking Member Velazquez and 
members of the Committee, thank you for this opportunity to 
appear before the committee to discuss USDA Rural Development's 
role in supporting economic development of our Nation's rural 
communities.
    Since 2009, President Obama's support for rural America has 
brought about historic investment in rural communities that has 
made rural America stronger and more vibrant. Rural development 
has directly invested or guaranteed more than $131 billion over 
the last 4 years in broadband, businesses, housing, safe water, 
community facilities, and more that have benefitted not only 
the communities our agency serves but the Nation's overall 
economy.
    In fact, we view rural development programs as building 
blocks for a successful rural economy. Quality infrastructure 
encourages business and economic growth, which, in turn, 
encourages housing development to serve the influx of new 
employees and leads to additional necessities such as schools, 
hospitals, and emergency resources. Our programs address all of 
these needs.
    Congress had the forethought to strategically place 
comprehensive programs for rural America in one agency, USDA 
Rural Development. Perhaps most importantly is how Rural 
Development provides these critical programs: with more than 
400 offices in rural communities across the country that 
provide us the ability to work directly with stakeholders that, 
many times, do not have the capacity to otherwise access 
Federal programs.
    To make sure that the community economic development 
mission is met, we have always looked for opportunities to 
collaborate with other agencies to get the best results 
possible in rural communities. Engaging with members and 
stakeholders on the White House Rural Council has opened doors 
to improved cooperation.
    Last summer, I participated in the Regional Innovation in 
Rural America forum to develop strategies for leveraging 
infrastructure investments in rural communities that create 
jobs and boost economic development. Two programs highlighted 
in this forum were the Rural Jobs and Innovation Accelerator 
Challenge and the Stronger Economies Together initiative.
    The Rural Jobs and Innovation Accelerator Challenge 
leverages existing financial and technical assistance resources 
from 13 Federal agencies and bureaus. To date, projects across 
12 States have received Federal funding to help strengthen 
regional industry clusters by identifying and maximizing local 
assets, connecting to regional opportunities, and accelerating 
economic and job growth across rural regions.
    Meanwhile, the Stronger Economies Together, or SET, 
initiative enables rural communities and counties to work 
together to implement multicounty economic blueprints to build 
on a region's current and emerging strengths. Rural Development 
launched this initiative with land-grant university partners 
and Regional Rural Development Centers 2 years ago. SET is now 
active in nearly 40 regions in 19 States.
    Over the past year, we have further strengthened our 
collaborative efforts with the Small Business Administration. 
We held a series of USDA and SBA joint roundtables across the 
country focused on increasing investment in rural communities. 
The meetings have presented opportunities to hear from 
stakeholders at both agencies about the challenges and benefits 
of investing in rural America.
    In response to these discussions, leaders from our rural 
business team have been meeting with SBA to increase 
microlending availability to rural constituents. We determined 
from these roundtables that there are substantial amounts of 
resources and revolving funds created through several of our 
programs that are available for increasing investment in rural 
communities. We are actively pursuing the relending of these 
funds.
    Participants in these discussions include our revolving 
fund partners SBA, SBA Certified Development Companies, Small 
Business Development Centers, commercial lenders, and other 
community and economic development stakeholders. This is 
important in light of the challenges entrepreneurs face getting 
financing in rural areas, where lenders are often small and 
less likely to shoulder the risk alone, particularly during an 
economic downturn.
    Building on these successes, USDA signed an MOU with the 
American Association of Community Colleges to strengthen rural 
economies throughout the Nation. National, State, and local 
staffs around the Nation are diligently working to find ways to 
coordinate with stakeholders and colleagues in other Federal 
agencies to leverage resources and create jobs.
    For example, a USDA Rural Development in California has 
recently joined into a memorandum of understanding with the 
California Community Colleges Chancellor's Office. In 
conjunction with this effort, the two agencies are partnering 
with local community colleges and small-business development 
centers to present capital readiness events throughout the 
State, and these events provide information and resources for 
small businesses seeking financing.
    These are just a few of the examples of USDA's 
collaborative efforts with other agencies across Federal 
Government to support rural communities that are fostering 
economic development. Leveraging Federal resources to more 
effectively support economic development efforts continues to 
be an agency best practice.
    I am proud of our record of collaboration and meeting 
increased demand for our services in the face of declining 
funding levels and significant staffing losses. In spite of 
those challenges, Rural Development has been able to maintain a 
unique connection to rural America, a connection like no other 
Federal agency, by aggressively implementing the Secretary's 
Blueprint for America and Rural Development's economic 
development strategies.
    I appreciate the opportunity to join my colleagues from SBA 
and GAO to testify before members of the Committee today, and I 
welcome the chance to answer your questions. And thank you for 
your support for Rural Development programs.
    Chairman Graves. Thank you very much, Mr. O'Brien.
    We are going to start with Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    Mr. Shear, I appreciate your returning to the Committee. I 
also appreciate the brevity. You had a minute, 25 left in your 
time--well recognized for that.
    But I have a follow-up question, particularly a tough one. 
And if we are looking at these programs, and, again, many 
different programs across multiple agencies, are we able to 
compare the performance or efficiencies of these programs one 
to another?
    Mr. Shear. It is a very good question, and it is a very 
difficult question. And the general answer to that is no.
    Each program has program metrics looking at the attainment 
of certain goals, which there are some differences among them, 
but the idea is that those metrics provide an opportunity to 
track outputs over time, such as number of businesses assisted, 
things of that nature. So they are more output-oriented, but 
they don't get to the issue of the effectiveness of the 
programs.
    And this is one reason why we say that especially for the 
programs that don't meet their goals, but even those that do, 
evaluation is important, where you are trying to benchmark to 
some degree what would happen without the program and saying, 
how well does the program work at serving its particular 
mission, such as training and counseling, and how well does it 
help the small businesses that participate in training and 
counseling, is one example.
    Mr. Huelskamp. And so, well, how do we then--does that mean 
that we just don't have the data? We are on the other side of 
the table. I mean, we have a multitude of programs here, two 
different agencies represented today. And it is time to pick or 
choose, when we have a $16.7 trillion deficit. You are telling 
me that even if we don't have the data or even if we did have 
the data to collect it, we still couldn't compare it and say, 
hey, this program is something worth keeping compared to 
another program?
    Mr. Shear. There are some indications--there is some 
information that can be available to look at the usefulness, 
some programs better than others. As it happens, there is 
better information on the three counseling and training 
programs at SBA than other programs, but, really, there is 
generally a lack of information.
    To give you an example, when we issued our GAO-wide report 
last year, we thought we would be making a recommendation to 
Congress, what we call a matter for consideration, to tie 
funding more closely to demonstrate effectiveness. But based on 
further evaluation on our part, we decided that was premature 
because the first step in that would be for the agencies, to 
have a requirement and should consider it their responsibility, 
both individually and collectively, to collect and evaluate 
information on how well their programs are serving their 
intended purposes.
    Mr. Huelskamp. You know, appreciate that.
    And so let me ask the agencies represented here--and thank 
you for coming here.
    Mr. O'Brien, later I will follow up separately on RUS. We 
can actually make a key difference if we got a key decision out 
of that agency.
    But if you had to pick one particular program, gentlemen, 
in your purview that you would say, hey, that is the least 
effective program in our department, would you please identify 
that for me?
    Mr. Chodos. Well, from the SBA's perspective, in the 
President's submission in the 2013 budget the SBA proposed that 
the PRIME technical assistance program not be funded further, 
that it was duplicative of programs that are essentially micro-
assistance counseling and technical assistance already provided 
in our SBDC, Women's Business Center, and SCORE networks and, 
therefore, that it was an opportunity for savings.
    Mr. Huelskamp. Very good.
    USDA, Mr. O'Brien?
    Mr. O'Brien. Thank you for that question, Congressman.
    I think two programs that I might point to are somewhat 
similar programs, one called the Rural Business Opportunity 
Grant and the one called the Rural Business Enterprise Grant. 
They have similar purposes; the way that we deliver them is 
separate. And there has been discussion and we have suggested 
in the past that we actually merge those two programs and 
consolidate the implementation of those two programs.
    Mr. Huelskamp. Are you proposing to save money or simply 
consolidate and maintain the same----
    Mr. O'Brien. Well, there would be some streamlining. Each 
of those programs have their separate competitive process to 
compete for those Federal dollars, and, by consolidating the 
program, that would be one less--NOFA process and the attendant 
staff time that goes on to make sure that we do a good job.
    Mr. Huelskamp. Indeed. Now, is that in the President's 
budget proposal?
    Mr. O'Brien. Well, at this point, of course, with the 
President's budget not being released, that is something I 
can't comment on right now.
    Mr. Huelskamp. Okay. I would have some comments--and I am 
out of time--on the President's budget proposal, but, Mr. 
Chairman, I appreciate the opportunity to ask questions. I 
yield back.
    Chairman Graves. Ms. Velazquez?
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Shear, thank you for coming back.
    I just would like to clarify for the members of the 
Committee, when you were answering the gentleman from Kansas, 
you said that all the programs have metrics and all the 
authorized programs have metrics. What about pilot projects? Do 
they all have metrics, the pilot programs?
    Mr. Shear. My understanding is that they don't.
    But one of the things with the pilot programs, and one 
reason they are not in our universe, we took what was basically 
the executive branch's approach to what is considered a 
program, which is from the Catalog of Federal Domestic 
Assistance. So some of the programs you talk about--it is a 
very good point--some of these pilot programs don't appear on 
that list.
    So there are some programs out there that my understanding 
is don't have metrics, but they have not been included in our 
universe because they are not identified as such.
    Ms. Velazquez. Uh-huh. Okay.
    So, Mr. Shear, in your 2011 testimony before this 
Committee, you stated that SBA had only met 16 of 26 
requirements of the Small Business Disaster Response and Loan 
Improvement Act, which was passed to make improvements in the 
aftermath of Hurricane Katrina.
    Where does the agency stand on implementing these 
requirements?
    Mr. Shear. The agency--there are 26 provisions. Some of 
them create some authority but not a responsibility, and we put 
those down as not applicable. But you take those away, they 
have implemented--let's say, we made a big deal about having 
regional outreach-type plans, and they have implemented that.
    The three remaining provisions from that act that haven't 
been implemented are the private and the expedited and the 
intermediate loan programs, which are programs to operate with 
private lenders. Those have not been implemented.
    In terms of our recommendation around the whole thing, we 
asked, for things not implemented, to give us a timeline. We 
still don't have a timeline on those three.
    Ms. Velazquez. Okay.
    As you know, Hurricane Sandy has produced the largest 
number of disaster loan applications since Hurricane Katrina. 
Unfortunately, processing times have spiked significantly, 
causing many to go without the funds they need to fully 
recover.
    Given these delays, wouldn't the unimplemented provisions, 
particularly those allowing private lenders to assist SBA 
during periods of high volume, help individuals get their loans 
more quickly?
    Mr. Shear. The intent of those programs, as passed, was to 
provide that type of assistance when you had big disasters. So 
I can't say exactly how they would have played out if they were 
available.
    But what I can observe is that, ever since, the act went 
through, SBA said it wanted to conduct pilot programs, which we 
thought were a good idea. But this is a number of years ago. 
And they were focused on having pilot programs in the Gulf 
States, but you can have a disaster anywhere. So they really 
didn't look at it in the proper way.
    Ms. Velazquez. But it was a great opportunity now under 
Sandy, given the magnitude, right?
    Mr. Shear. Absolutely. And if they would have taken steps 
to at least be positioned to introduce pilot programs in 
different parts of the country, they would be in a position now 
to implement pilot programs. And it not only could help serve 
that purpose, but it could also provide information on how 
effective such interventions could be.
    Ms. Velazquez. Okay.
    While there is significant overlap among the populations 
that these programs serve, you know that GAO did not find 
duplication. Can you elaborate on this point and the 
distinction GAO makes between overlap and duplication? Because 
I think it is a critical part of GAO's findings.
    Mr. Shear. Yes. ``Duplication'' we define as providing the 
same or similar services to the same types and the same 
businesses themselves. So it really is serving the same 
audience, the same types of services. We did not find evidence 
of duplication.
    ``Overlap'' tends to be when you have a number of programs 
that are operating in the same space as far as missions and 
goals. So we do observe overlap. And we do observe an awful lot 
of fragmentation.
    Ms. Velazquez. Some of the overlap you talk about has been 
caused by agencies creating their own initiatives without the 
authorization of Congress. For instance, the SBA has created 
programs like Regional Innovation Clusters and Emerging 
Leaders.
    With more than 50 entrepreneurial assistance programs 
across the government, does it make any sense for agencies to 
be creating new programs in this area?
    Mr. Shear. While we didn't look at the pilot programs, we 
say it doesn't make sense and it goes against the grain of 
everything we are recommending here.
    Under the GPRA Modernization Act, agencies are supposed to 
work with each other. There is a priority goal established by 
the administration to serve entrepreneurs and small businesses. 
And no agency by itself, in that framework and under the law as 
passed by Congress that everybody seems to have accepted, it is 
not appropriate for an agency to go off and create its own 
pilot programs on their own. It just is inconsistent with where 
we are going on this.
    Ms. Velazquez. Thank you, Mr. Shear.
    Mr. Chodos, SBA ED programs are funded through a salaries 
and expenses account, which will face a reduction of $22 
million. Is that correct, $22 million, right?
    Mr. Chodos. We are speaking about under sequestration?
    Ms. Velazquez. Yes.
    Mr. Chodos. Approximately, yes.
    Ms. Velazquez. Based on information we have received from 
your agency's CFO, it appears that SBA will reduce some of its 
entrepreneurial development programs by 8 percent, such as 
SBDC, and others by nearly nothing, such as microloans, 
technical assistance, and veterans assistance.
    I just would like to know, how did you arrive at these 
decisions, and why did they not apply 5 percent across the 
board?
    Mr. Chodos. Thank you, Ranking Member Velazquez, for the 
question.
    The whole issue of how best to apply the sequestration, 
application of sequestration cuts--I am sorry.
    Ms. Velazquez. I just--I need for you to answer my 
question. How did the agency arrive at the decision, and why 
did it not apply the 5 percent across the board? You cut some 
programs at 8 percent and other programs at 5. How did you get 
to that decision?
    Mr. Chodos. I will respond by saying this. The overall 
requirement was to cut 5 percent out of each major line item, 
budget item, for the agency. The salaries and expenses account 
includes almost all of the agency's programs and services and 
expenses for salaries.
    The overall cut was required to be 5 percent. The agency 
engaged in a very deep analysis of where best to apply cuts, 
either below or above that level, in order to achieve the 5 
percent cut across that entire bucket.
    Ms. Velazquez. So I hope you could share with the Committee 
what metrics you used to decide which programs to cut at 5 and 
which programs to cut at 8.
    Explain to me, why did you decide to defund the PRIME 
Program that happens to be the only program that provides 
technical assistance to low-income, entrepreneurs for example? 
Or why did you decide to cut 5 percent--let's pick one. 
Emerging Leaders, you know, where you train 300 people at a 
cost of $3 million. Compare that to SBDC. That is only $2,000 
per client, while Emerging Leaders, which is a pilot program 
with no metrics, costs $12,000 per client.
    Mr. Chodos. Actually, the Emerging Leaders Program does not 
cost $12,000 per client, and we do maintain metrics on all of 
our programs, including the two that you have mentioned, 
Regional Innovation Clusters and Emerging Leaders.
    We are highly focused on the need to maintain actual, 
meaningful measurements of not only participation and activity 
but also outcomes in all of those programs. And, indeed, we do.
    Ms. Velazquez. Excuse me 1 second. These are your numbers; 
these are not my numbers. Emerging Leaders, $3.776 million to 
train 300 individuals. The cost per training one individual 
through that program, if I do the arithmetic, is $12,500.
    Mr. Chodos. I look forward to and I am happy to provide a 
detailed summary of all of the budget analysis and expenditures 
in e200. This year's budget for the e200 Program is 
approximately $1.2 million. The number of students who were 
enrolled in the e200 program last year across the country in 
our 27 cities in which we operate the program is approximately 
400 to 500 per----
    Ms. Velazquez. Can you explain to the Committee, why did 
you decide to apply 8 percent to the Women's Business 
Development Centers compared to any of the unauthorized 
programs?
    Mr. Chodos. We applied an 8 percent cut across our three 
primary programs because it is a key principle that we have in 
all of our dealings with our three main technical assistance, 
counseling, and training programs that not only do they 
collaborate and coordinate and provide a complementary suite of 
services, but as our budget goes up or goes down, all of them 
need to absorb those increases or decreases in a proportionate 
way.
    Ms. Velazquez. Mr. Chodos?
    Mr. Chodos. Yes.
    Ms. Velazquez. For the record--and this is my last question 
now--if you cut all the unauthorized pilot programs, that will 
add up to what?
    Mr. Chodos. Well, I am not sure--I don't believe we have 
any unauthorized programs. I think every program that the 
agency has----
    Ms. Velazquez. Those are pilot programs that are 
unauthorized.
    Mr. Chodos. Well----
    Ms. Velazquez. We legislate here. We know which programs 
have been authorized by this Committee.
    Mr. Chodos. Yes.
    Ms. Velazquez. And those are not.
    Mr. Chodos. I would like to say, Ranking Member Velazquez--
and I am not sure specifically which programs you are referring 
to. The e200 program, as I said, has a $1.2 million budget for 
this year. Now, that is a significant amount in any agency's 
budget, including our budget.
    The Regional Innovation Clusters budget for the agency for 
2012 was $5 million. Under sequestration, it is going to be 
something less than that.
    Ms. Velazquez. Well, since you don't know----
    Mr. Chodos. May I----
    Ms. Velazquez. Excuse me 1 second.
    For the record, Mr. Chairman----
    Mr. Chodos. May I answer?
    Ms. Velazquez. I know what you are going to say. But you 
said that you don't know what programs are unauthorized, and I 
am going to tell you. You have $6 million for BusinessUSA Web 
site; $3.4 million for Clusters; $7 million for national vet 
training program; $2.2 million for Emerging Leaders. And these 
add up to $22 million.
    Mr. Chodos. Yes. Well, if the question that--I believe the 
last question that you asked is, do we maintain metrics in 
those programs? Are we able to measure the effectiveness of 
those programs? And, in fact, have we cut the only program that 
provides training to our micro-entrepreneurs? And the answer, I 
think, to those questions is no.
    The reason that the President proposed in his 2013 budget 
that the PRIME Program be defunded is simply that the 
allocation in that program and the problems addressed by that 
program can be addressed by our Women's Business Centers, which 
are targeted to underserved women and male entrepreneurs all 
across this country, and by our----
    Ms. Velazquez. Reclaiming my time, Mr. Chairman.
    PRIME is the only program where a loan is tied to technical 
assistance. If you want to see low-income entrepreneurs 
succeed, you provide technical assistance, and until they 
graduate, they will not be able to access capital. And it has 
been proven that it has been one of the most successful, at 
least for women--62 percent, 62 percent of borrowers are low-
income women.
    And, with that, I yield back the balance of my time.
    Chairman Graves. Thank you, Ranking Member.
    Mr. Luetkemeyer?
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Mr. Shear, you were talking a while ago about some of the 
programs were not--we did not evaluate them, they were not 
required by law to be evaluated. What is the penalty for not 
evaluating a program?
    Mr. Shear. We would hope that through hearings such as this 
and by initiatives by the administration that there be a 
recognition that the demonstrated effectiveness of programs 
should play some role in allocating resources.
    Mr. Luetkemeyer. Okay. So what you are saying is, at this 
point, there is no penalty?
    Mr. Shear. There is no legal requirement.
    Mr. Luetkemeyer. There is no outcome that we are looking 
for that will show some sort of a penalty for not doing 
evaluation on it; is that right?
    Mr. Shear. The question there is almost like, how would you 
as a Committee, Congress, and the administration respond in 
terms of agencies that run programs----
    Mr. Luetkemeyer. Okay.
    Mr. Shear.--that don't measure effectiveness.
    Mr. Luetkemeyer. If you can't measure the effectiveness, 
why should we continue to fund it?
    Mr. Shear. This is really--it is a great question. It is 
one of the questions we had in mind when we thought we were 
going to make the recommendation of tying funding to 
demonstrated effectiveness. In the absence of such information, 
it is a difficult situation.
    Mr. Luetkemeyer. Well, the gentleman from Kansas asked a 
great question, you know, with regards to--he pointed the 
problem we have with our budget, and we are going to have to 
find some places where we are going to cut. And, you know, Mr. 
Chodos made the comment with regard to some of the things he 
was trying to do.
    But, at the same time, if we have no measurement of any of 
these programs--on half the programs, I was going through here, 
we have them highlighted. I mean, you look at some of this 
stuff. Some of the programs didn't meet goals; other ones met 
some of the goals. Some of them have information on them; some 
don't have information on them.
    I mean, and then when somebody complains, well, we don't 
have any--you know, well, this is a great program and we have 
to cut it, it is a bunch of nonsense. If we are supposed to be 
sitting here setting priorities, you know, I would hope that 
you and your agency would help set priorities so we know which 
ones to fund, which ones not to fund.
    Mr. Shear. This is a very important point, I think, is that 
what we are trying to do is to provide our evaluation of the 
situation that we hope provides information that can lead to 
certain decisions. There are certainly value judgments 
involved, where we are not going to make those value judgments. 
We are not here to pick the winners and losers of what programs 
should stay and which ones should not. But we are trying to do 
our best, based on the information that we could glean from 
these agencies, of how well these programs are working. And, 
there are certain things where we have to look to the agencies 
to collect and analyze information.
    Mr. Luetkemeyer. It was kind of interesting, when I was--I 
served on the Appropriations Committee back in Missouri, and 
when an agency came in and they couldn't explain a program, it 
was automatically cut.
    Mr. Shear. Yes.
    Mr. Luetkemeyer. And you should have seen the gasps from 
the rest of the crowd, who were all full of--the crowd was made 
up of all the people from the agency. That is why we got their 
attention, and that is how we managed our budget. This is 
ridiculous.
    Mr. O'Brien, you know, the title of this hearing today is 
``Examining Inefficiencies and Duplication Across Federal 
Programs.'' And I fail to see anywhere in your testimony on in 
this hearing you testified today anywhere where you talked 
about streamlining any programs. All you talked about was 
collaboration.
    Is there anyplace in the USDA that you are streamlining?
    Mr. O'Brien. Yes. And I thank you for that question, 
Congressman.
    Mr. Luetkemeyer. Why wasn't it in your testimony?
    Mr. O'Brien. I believe, actually, in some of the written 
testimony there was. Some of it should have been in the oral 
testimony.
    Mr. Luetkemeyer. Okay.
    Mr. O'Brien. One thing I would like to highlight on 
streamlining: In 2009, department-wide and including Rural 
Development, we instituted an effort called Blueprint for 
Stronger Service. That was focused on, streamlining the 
operations and the programs across the Department.
    Since that time, across the Department we have saved $700 
million in things such as reduced travel, and office closures, 
as well as a number of things like coordinating procurement 
contracts, and a list that I would be able to and would be very 
happy to provide you on the record afterward.
    Mr. O'Brien. Within Rural Development itself, in the last 
year and a half we have reduced our workforce by about 18 
percent. We have 47 State offices. We have done things in our 
business programs to create team leads, 10 team leads, in 10 
different regions so that they have a higher expertise and that 
they basically provide the training for our staff in these 
particular programs. And, also, with some of the staffing 
shortages that we have, that they have some backup in those 
places. So it is some streamlining.
    Mr. Luetkemeyer. Okay. With regards to--you talked about 
all your collaboration. Okay, through your collaborative 
efforts, have you found places where you can save?
    Mr. O'Brien. Yes, I----
    Mr. Luetkemeyer. Collaborating with other agencies, have 
you found where you can save some money?
    Mr. O'Brien. I think the--I think yes, sir. And thank you 
for that question.
    Mr. Luetkemeyer. Okay. Since you have found places, have 
you instituted a program to save that money?
    Mr. O'Brien. Well, I think that the money--well, you know, 
instituted a program. I think that with the reduced--I think 
with those savings what we have experienced as opposed to--
because a number of our programs have been cut, and in 
particular our salaries and expenses have been reduced in the 
last few years----
    Mr. Luetkemeyer. Okay, we got that part. What about 
programs now? You know, you have sequestration cuts coming 
here. Have you found a place where you can cut, other than 
salaries and associated expenses, somewhere in your 
programmatic group?
    Mr. O'Brien. Yes, we have. And----
    Mr. Luetkemeyer. Give me an example.
    Mr. O'Brien. In the fiscal year 2013 budget, we identified 
some programs that we thought would----
    Mr. Luetkemeyer. Give me an example, please.
    Mr. O'Brien. I think the Rural Business Opportunity Grant 
Program in the 2013 budget was one that we recommended that it 
not be funded. There were a number of other programs that we 
did recommend some reduced----
    Mr. Luetkemeyer. With the new sequestration cuts, what are 
some of your latest ones you are going to go after?
    Mr. O'Brien. The latest programs that we will go after?
    Mr. Luetkemeyer. Yes, uh-huh.
    Mr. O'Brien. Well, with the sequestration cuts, the way 
that it works with our budget lines so the way that 
sequestration will affect the programs in the Rural Business 
Cooperative Service, each of those programs will be cut 5 
percent. And we have looked at flexibilities to try and perhaps 
move some of those dollars around, and----
    Mr. Luetkemeyer. Okay, but you haven't----
    Mr. O'Brien. I am afraid that we do not have that 
flexibility.
    Mr. Luetkemeyer.--given an example. You haven't given me an 
example of a program that you are going to cut or where you are 
going to make a cut.
    Mr. O'Brien. In response to the sequestration?
    Mr. Luetkemeyer. Yes.
    Mr. O'Brien. We do not have the flexibility to pick and 
choose which program to cut----
    Mr. Luetkemeyer. Okay.
    Mr. O'Brien.--and which one not to cut.
    Mr. Luetkemeyer. All right. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Graves. Mr. Murphy?
    Mr. Murphy. Thank you, Mr. Chairman. Thank you all for 
being here today. GAO reported that only half the 
entrepreneurial assistance programs identified attempted to 
measure their success. Is that accurate? That only about half 
the programs are being measured for success?
    Mr. Shear. Yes.
    Mr. Murphy. It is. Okay. Forgive me. I am new here. I am 
just trying to get my head around this. But it is hard for me 
to believe that we are giving all this money and it is not 
being tracked. And I know we all keep talking about it here, 
and I don't want to beat a dead horse, but maybe you could 
start off by maybe telling me what you think should be tracked 
when this money is given out.
    Mr. Shear. We don't raise many issues with what is tracked 
as far as metrics over time, such as how many entrepreneurs are 
being served, things of that nature.
    What we are critical of--evaluations are important but 
don't have to occur on an annual basis. It would be quite 
costly to do such. But what we are looking for is certain 
snapshots in time for evaluations which get at the question as 
to how well these programs are serving their intended purposes.
    Mr. Murphy. Things such as how many jobs are created, ROI?
    Mr. Shear. No, and I really appreciate that question.
    We actually think it can be very problematic to try to 
estimate directly how many jobs are created by a program 
because it is so hard to benchmark what would have happened in 
the absence of the program.
    But let me just give you an example using the three 
counseling and training programs that Mr. Chodos runs for SBA. 
And, in that case, what they look at is, first, for those 
people who get counseling and training from those programs, how 
do they value that counseling and training in terms of how much 
it helps their businesses? But then I think, more importantly, 
it takes those businesses that are served, and it collects 
information on how well those businesses do after they receive 
such assistance.
    So the underlying issue is that counseling and training 
programs are supposed to help businesses succeed. They come up 
with an estimate of how much it helps them succeed. And if they 
are succeeding--there is the general notion that if they are 
succeeding, they are probably providing more jobs in the 
community because they are successful businesses as a result of 
the counseling and training.
    Mr. Murphy. Can you provide an example, maybe, of a program 
you thought was failing and what you did about it?
    Mr. Shear. It is not like we do anything about it. Again, 
we don't want to pick out winners and losers. We report on the 
results of some of these evaluations. It is----
    Mr. Murphy. So you don't want to report on it; you want us 
to do it.
    Mr. Shear. Well, the question is, is there a specific 
program that you might be interested in, or maybe somebody on 
the panel would be? I mean, I can identify one where the 
evaluation does not show a lot of success. Would you like me to 
identify one from our list?
    Mr. Murphy. I think that would be helpful for all of us.
    Mr. Shear. Okay.
    In our list, which is--the table is not in my prepared 
statement. It is in our report that my statement is based on. 
We have a table of evaluations that have been conducted. And in 
that, the SBA program that shows up as not being especially 
effective at its purpose is the HUBZone program. It is supposed 
to facilitate economic development in economically depressed 
areas. And the evaluation conducted on that program suggests 
that, due to kind of the small nature of the dollars involved 
over the very large geographic area, that the program has not 
facilitated economic development, which is the purpose of the 
program.
    So that is one program. I hate picking one program, but 
that is one program which, if you read the table in our report, 
I think it stands out.
    Mr. Murphy. Thank you for that.
    And since we don't have the measures and since it seems 
perhaps more complicated for you to give us employment numbers, 
ROI, that sort of thing, do you provide other areas that we can 
cut, other programs, instead of that one in particular. I mean, 
is there a whole list of them?
    And that goes for all three of you.
    Mr. Shear. We are not picking the winners and losers. And 
part of it, getting back to----
    Mr. Murphy. But you need to give us the information to be 
able to do so, correct?
    Mr. Shear. It is like for us or the agencies to evaluate, 
and we are saying the agencies have a responsibility to collect 
and evaluate certain information. We collected an extensive 
amount of data from the agencies, and it only allows us to go 
so far in terms of what we can say about these programs or how 
the agencies use the information to administer the programs and 
to demonstrate effectiveness.
    And we can't make up data. We are a fact-based agency. So 
we have done what we can with the information made available. 
And among our biggest recommendations is that agencies, both 
individually and collectively, should be collecting information 
and evaluating information that tries to demonstrate how well 
the programs are working.
    Mr. Murphy. Thank you.
    Ms. Velazquez. Mr. Chairman, would you indulge me 1 second 
to make a follow-up question regarding the HUBZone program to 
Mr. Shear?
    Mr. Shear, the HUBZone program is supposed to provide 
economic development opportunities in low-income communities. 
Is that the case?
    Mr. Shear. Yes. It is to foster economic development, yes.
    Ms. Velazquez. And is there any data to back this up?
    Mr. Shear. The one evaluation conducted--and I am just 
going to go through a couple steps.
    One of the things that we recommended when we prepared a 
report on the HUBZone program that was delivered to this 
Committee in 2008, that there should be evaluations of the 
effectiveness of the program. SBA acted like they were going to 
evaluate, but the one evaluation of it by the Office of 
Advocacy does not show that it has the intended impact.
    Ms. Velazquez. Thank you. The short answer is no.
    Mr. Shear. The answer is no, yes.
    Chairman Graves. Mr. Collins?
    Mr. Collins. Thank you, Mr. Chairman.
    I am relatively new here, and, you know, so I have been 
listening and watching. And I guess my take of what I am 
hearing today, Mr. Shear, is that if you are the teacher, you 
are not giving very good grades to Mr. Chodos or Mr. O'Brien.
    So if I look at that as a report card and, you know, I look 
at what we are talking about, a lack of coordination and 
efficiency and so forth, I guess--you know, some people know me 
around the country as the pied piper of Lean Six Sigma, 
bringing efficiency to government. And I have done that. So I 
guess I have a simple question.
    Some of the concerns that I am hearing Mr. Shear bring up 
are just screaming for a master black belt to step in and take 
a project and process-map one or two in the SBA, and in 
process-mapping what those steps are, look for efficiencies 
but, more importantly, define outcomes, define metrics, come up 
with control charts.
    Where we say we don't measure it all the time, well, if the 
process is properly set up, you will get data at every turn 
that will give you your metrics. They are ongoing, hourly, 
daily, monthly snapshots. Snap your fingers, you have the data.
    And what I am hearing is a lack of data, a lack of 
accountability, duplication, overlap. I mean, it is just 
screaming, to me, let's maybe think about something out of the 
private sector. Lean Six Sigma is what comes to mind.
    I mean, do you have a comment to make? Does that make sense 
to you? Is it something you might want to try, Mr. Chodos?
    Mr. Chodos. Thank you, Congressman.
    Let me say--and I just want to make sure that we leave a 
proper impression and set of facts with the Committee here 
today. The SBA's Office of Entrepreneurial Development engages 
in among the most robust tracking and ``metricking'' of outputs 
and outcomes across all of our entrepreneurial development 
programs of just about anywhere in the Federal Government.
    We track in detail demographic data about our clients, who 
they are, how big their business is, what their revenues are. 
Then we track what services we provide. Then we track what 
outcomes they report in terms of changes in revenue, changes in 
number of employees, job starts, business starts, that sort of 
thing.
    And then, in addition to the hard data, which is done on a 
client-by-client basis, we engage in annual evaluation through 
surveying of the clients who have received our services to find 
out attitudinal changes, management changes, and the 
effectiveness of the programs. And then we track cohorts over 
time to see how things have improved over time.
    We are deeply engaged in exactly the kind of process 
management that you are describing. We agree with you 
completely that it is critical.
    We recognize that improvements in performance analysis are 
an ongoing project. You never get it right just once and then 
stop; you do it on an ongoing basis. We are happy to work with 
the Committee on an ongoing basis, as we do and look forward to 
continuing to do, to look at what we measure and how we measure 
it and to find opportunities for making it even better.
    Mr. Collins. Mr. O'Brien, do you have a----
    Mr. O'Brien. Yes, just very quickly. I will also--and sort 
of a two-part answer is that, at USDA Rural Development, we 
also track every one of our programs. We take the 
recommendations on how we improve that tracking and, in 
particular, how we can do a better job at program evaluation 
very seriously. And, in fact, we are in the middle of a 
strategic plan right now on how we can do so.
    On your point about Lean Six Sigma, indeed, Secretary 
Vilsack, when he was the Governor of Iowa, it was something 
that he brought to State government, Lean Six Sigma in 
particular, and that is something he brought to the USDA. We 
have used it across the Department at USDA Rural Development. 
We have used it in a number of places. So, absolutely, we agree 
with that.
    Mr. Collins. Well, I mean, that is encouraging. I will 
just--not to go to the Agriculture, it was just disappointing 
when Secretary Vilsack, the other day, said that Lean Six Sigma 
won't work with food inspectors. It works everywhere.
    But, you know, I guess I am hearing a little bit of a 
disconnect, because it starts with the GAO report of all the 
opportunities, but then taking it to isolated cases, everything 
is fine, but everything is not fine.
    So, Mr. Shear, do you want to comment on those two answers?
    Mr. Shear. One of the reasons why I referred to the 
counseling and training programs, which Mr. Chodos is in charge 
of, is that is one of the better examples where--so if you are 
saying what grade to get, his office gets one of the better 
grades, if not the best grade, among these agencies. And for 
the programs within SBA, compared with other SBA programs in 
other areas, his three programs come out the best. And one of 
the things that makes it attractive for me, when I am asked 
questions about it, I can give an example of something that 
goes down the path that we are looking for. So his programs do 
a little bit better.
    But there is the distinction between, again, metrics, where 
you can track certain processes and outcomes, and measures of 
effectiveness and collecting information on how well programs 
are administered. His programs, among the programs we are 
talking about today, his three programs are the ones that are 
the best evaluated.
    And I will just make reference to, without commenting on 
the numbers, but on page 9 of my written statement we have a 
table which really gets to the internal control issues, what 
types of information are the agencies collecting to administer 
their programs. And I will just refer to it. You can get an 
idea as far as kind of a scorecard, or a grade sheet as such, 
of how well the different agencies are doing.
    Mr. Collins. Thank you. My time is up.
    Chairman Graves. Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman, and to the ranking 
member of the Committee.
    Let's see. Mr. Shear, in your effort to identify overlap 
and fragmentation of the programs across Federal agencies, did 
the GAO take into account programs that are designed for 
targeted populations, such as under-represented minorities and 
women?
    Mr. Shear. Yes, we did. And we tried to draw on that as far 
as what are the purposes of the program. And this is one reason 
why we refer to overlap and fragmentation.
    So we still represent--again, I will use the example of Mr. 
Chodos' three programs. Women's Business Centers are targeted 
to a lower-income population than Small Business Development 
Centers, for example. So we take that into account in 
describing it. Nonetheless, they are programs that do provide 
similar services.
    So one of the questions here--again, we are not picking the 
winners and losers--is, is there a way to provide services in a 
better way, or is there a restructured program that could be 
done, where those populations, including those that are reached 
by the Women's Business Centers, could be done in a more 
efficient manner?
    Mr. Payne. So, you know, in trying to understand what you 
do, you deal primarily in the facts, and you transfer or make a 
recommendation to the SBA or the agency, correct?
    Mr. Shear. Yes, we have made recommendations to the four 
agencies and to the Office of Management and Budget about 
serving entrepreneurs and small businesses.
    Mr. Payne. And the program that you did mention, HUBZone, 
and your findings and seeing that it is not achieving its goal, 
Mr. Chodos, when you get information like that, what do you do 
with it?
    Mr. Chodos. Well, every time we get information from the 
GAO, we take it extremely seriously, and we evaluate it and try 
to understand what it is that they were looking at and what the 
opportunities are for making decisions going forward.
    I will say that the HUBZone program falls within the Office 
of Government Contracting and Business Development at the 
agency, so it is not primarily under my purview.
    Mr. Payne. Okay.
    Mr. Chodos. So I am happy to go back and to submit further 
information to the Committee about what was done after the 2008 
GAO report in order to provide sort of a historical context of 
what occurred from that point forward.
    But the effectiveness of the programs is a key area of 
focus, and I am happy to provide further information on the 
HUBZone program.
    Mr. Payne. Thank you.
    In an effort to try to remain positive on a very 
frustrating topic, nice tie.
    And I would like to ask you and Mr. O'Brien, in response to 
the GAO report, the Department of Commerce stated that the GAO 
should consider the complementary role many agencies play in 
the field of economic development and need for varied but 
complementary activities to address the complexities of 
entrepreneurs.
    Can you provide examples within your agency where 
complementary services may be confused with duplication or 
overlap?
    Mr. Chodos. I think I can provide at least one example. 
There are examples within our network of the three programs 
virtually every day.
    Our SBDCs, our Women's Business Centers, and our SCORE 
volunteers work with each other on the ground in communities 
across America in order to evaluate entrepreneurs when they 
come in the door, find out are they nascent, just getting 
started, do they already have 30 employees and they are looking 
for the next round of financing, are they developing new 
products and materials. And they find them the help that is 
right for them at that particular stage in the life of the 
business. That is something we do within our own programs every 
day.
    But, more broadly, there are programs across the 
government, many of which were identified in Mr. Shear's 
report, which do powerfully valuable work supporting 
entrepreneurship, either through providing capital, grant-based 
funding, technical assistance, counseling, et cetera.
    And so we have worked in the joint regional cluster 
initiatives, we have worked with Commerce, Labor, Energy, NIST, 
agencies across the Federal Government, and Ag, in order to 
make the real analysis that Mr. Shear has been talking about, 
which is: What are all of the things that we all do? And how 
can we bring them together in a single, focused, combined, and 
coordinated effort so that communities can get the benefit of 
all those programs and services, can understand what they all 
are, can navigate through them and get the benefit of them, and 
have the most bang for the taxpayer buck.
    So, that kind of coordination is something at the heart of 
what all of us are trying to do.
    Mr. Payne. Mr. Chairman, if I could just allow Mr. O'Brien 
a brief answer on that.
    Mr. O'Brien. Thank you, Congressman.
    And I would associate myself with the response from Mr. 
Chodos. And, certainly, there has been, I think, some 
unprecedented collaboration across the Federal agencies in this 
administration here in Washington, D.C. I just want to mention, 
though, some collaboration on the ground.
    As we have mentioned, SBA has a very unique field 
structure, essentially, the way that they work with their 
intermediaries. We at Rural Development, primarily, almost 
exclusively, the folks that we work with are our employees in 
the 400 offices throughout the country. So those Federal 
employees that live in rural America, are part of that 
community, really understand the needs of those. And the unique 
programs that Rural Development has many times can be 
complemented by the programs from SBA and others.
    So we now, partially in response to the GAO report, we send 
out an evaluation to our staff at Rural Development every other 
year asking them, how much you collaborating and coordinating 
with SBA?
    I will just mention two or three data points. This is from 
the 2011 survey. And we asked States--and there were 41 States 
that responded--do you advise borrowers and grantees about 
SBA's program? It was universal; every one of our States has 
now picked up that habit. And to be honest with you, as a 
field-based organization, if what we talk about in Washington, 
D.C., doesn't hit the ground, you know, in rural Missouri, then 
it doesn't matter what we talk about here.
    So we found some real highlights about the collaboration 
that is happening out there, and we found some soft spots. And 
we continue to do some training to make sure that collaboration 
happens.
    Mr. Payne. Thank you very much.
    Mr. O'Brien. Thank you.
    Chairman Graves. Mr. Tipton?
    Mr. Tipton. Thank you, Mr. Chairman.
    And I would like to thank our panel for being here today.
    Mr. Chodos, I just want to make sure that I understood. 
Part of your testimony, you had indicated, you said that you 
are working, USDA, SBA, together to be able to recruit small 
businesses from rural communities into the HUBZone program? Is 
that accurate?
    Mr. Chodos. Yes. Among the initiatives that we have 
undertaken with Ag pursuant to our MOU, in addition to co-
training and cross-referring through our field networks, is to 
try to spread the world about the availability of the HUBZone 
program in order to make it more available and accessible to 
small businesses in rural communities, because many of our 
HUBZones are in rural communities.
    Mr. Tipton. Great.
    Then I guess I would like to ask you a question on behalf 
of my rural communities. We have in Archuleta County 8.5 
percent unemployment; Delta County, 8.1 percent; Montrose 
County, 9.6 percent unemployment; Montezuma County, 7.9 percent 
unemployment; Ouray County, 8 percent unemployment; Rio Grande 
County, 8.6 percent unemployment; San Miguel County, 10.5 
percent unemployment.
    And they just had their HUBZones pulled. How are you 
reaching out and helping those communities? All rural 
communities. I drive them.
    Mr. Chodos. So, what I imagine you are referring to is that 
there was just a realignment of all of the HUBZone designations 
across the country as a result of the last census. And the 
agency does not dictate or decide what is a HUBZone. It is 
determined by the census tract and the various data in the 
tract.
    I don't know specifically about what happened in the 
HUBZones and the designations in those counties----
    Mr. Tipton. I would truly invite you to take a look at 
that.
    Mr. Chodos. Yes.
    Mr. Tipton. Because I just read your criteria. Every one of 
these countries, perhaps save the census, meet that criteria.
    Mr. Chodos. May I get back to you with a specific county-
by-county explanation of what occurred?
    Mr. Tipton. I would certainly appreciate that. This is 
important for our areas.
    Mr. Tipton. And I would like to follow up on my colleague 
from New York's comments in regards to seeking out some 
volunteerism. You are familiar with SCORE?
    Mr. Chodos. Extremely. SCORE is one of the networks under 
my supervision.
    Mr. Tipton. Right. You know, I just met with them 
yesterday, and SCORE's independent research of their 2012 
client impact shows that they assisted over 38,000 businesses 
being formed, 82,000 jobs created. So they are obviously able 
to actually do some real measurement.
    So how does SBA use this data to be able to promote and 
advocate for SBA programs like SCORE that are effective and 
efficient?
    Mr. Chodos. So, as we describe the number of clients we 
counsel and train, the number of businesses that we start, the 
number of small businesses that we help counsel in specific 
areas, and the number of trainings that we offer, SCORE's 
figures are included within those. And, if requested, I can 
give you very specific numbers for specific locations within 
SCORE.
    But let me just back up to say, there is no force in the 
world as powerful as that in the heart of a volunteer. We are 
so grateful for what SCORE and its 13,000 volunteers do across 
the country every day. They give of their own time and their 
own experience. We have a collection of over 300,000 years of 
accumulated experience in the SCORE network. And they go out 
into communities across the country every day and help small 
businesses start and grow by offering the benefit and the gift 
of their experience. It is a powerful tool.
    Mr. Tipton. No question, you know, very positive. And I 
think Mr. Collins' point and my point is in tough economic 
times let's take advantage of that and be able to promote it. 
Because these are people that did grow businesses and do know 
how to be able to actually see the results and to be able to 
stick with the mentoring.
    Mr. O'Brien, I did want to ask you about the USDA Rural 
Development loans. I am concerned about those. It is set to 
remove communities from qualification, I think, on March 27th. 
Similar issues that I am talking about in regards to 
unemployment with the HUBZone programs.
    We have two communities, Fruita and Palisade, in my 
district that will lose their eligibility for these Rural 
Development loans based, again, on the latest census formula 
and calculation.
    Mr. O'Brien. Yes.
    Mr. Tipton. The unemployment in these areas is about 8.4 
percent.
    When a community is eligible to utilize a program for 10 
years and then all of a sudden this is just pulled, can you see 
why folks in my district are actually angry about this? This is 
a rural, depressed--we don't have a recession, we have a 
depression going on there.
    Mr. O'Brien. Yes. Thank you for that question, Congressman. 
And we certainly understand. We have heard from many 
communities and stakeholders who are concerned about the 
implementation of the 2010 Decennial.
    The three different laws that provide us the authority at 
Rural Development to implement our housing, business, and 
utilities programs, each of them essentially says that we must 
implement the programs pursuant to the latest census. Because 
of the new 2010 Decennial data, it took us a little bit of time 
to be able to accumulate that data, and, by that time, we were 
in continuing resolutions.
    Our general counsel advised us that, at the end of this 
continuing resolution, the one that we are in right now, we 
have a legal requirement to implement the law, which is to 
implement the 2010 Decennial, unless Congress extends 
eligibility in the continuing resolution--which there is some 
language you probably know about in both of the vehicles that 
are out there right now.
    We understand it is a serious issue, but we look to the law 
for our authority.
    Mr. Tipton. Thank you, Mr. Chairman. My time has expired.
    Chairman Graves. Mr. Hanna?
    Mr. Hanna. There is a premise--hi, Mr. Shear. It is nice of 
you to be here 2 days in a row. Thank you.
    Thank you, Chairman.
    There is a premise, kind of overriding premise here that 
things are measurable, that somehow there is an empirical 
method embodied in what you do and that you how to apply it. I 
don't take that for granted. I doubt if you do either.
    But how much of what you do can draw the kinds of 
conclusions that we need to draw? And how much of what you do 
and all of you do is fundamentally more subjective? And how do 
you decide how to weight all of that when you think? If that 
isn't too obscure a question.
    Mr. Shear. I think it is a very good question, and it is a 
good question to draw the distinction of what we might do as a 
fact-based audit agency that doesn't make the value judgments 
and the role of those of you who are put into the challenging 
position of determining the use of taxpayers' money.
    There is not a magical evaluation that is going to, simply 
put, rank-order programs. But, nonetheless, when you do conduct 
evaluations that get to how well are businesses doing that 
receive certain forms of assistance, what businesses are 
getting that assistance, what does that suggest for what 
benefits are generated from the program, whether it be 
counseling and training or loans or whatever it may be, it 
helps inform those decisions.
    As far as a lot of the discussion, in our report we 
certainly point out certain deficiencies, and, based on that, 
we make recommendations. I mean, one of the things that you 
have heard from this panel, and, I will echo, we certainly have 
gotten responses from the agencies that, whether they agree or 
disagree with us or not, they have taken actions to implement 
our recommendations.
    Mr. Hanna. Uh-huh.
    Mr. Shear. Now, as happens with committees across the 
government, and I will say this Committee, which I have had the 
pleasure of working with for a number of years, is that there 
is a need to follow up and just say, okay, are those actions 
actually being taken, and what are they leading to?
    It is promising to us that there is a cross-cutting goal 
that has been established by the administration to serve small 
businesses and entrepreneurs, but the idea is that we are 
looking for something much further. We are glad that there are 
MOUs between these two agencies and other agencies, but we are 
looking for, well, are you going to specify roles and 
responsibilities in those MOUs? Are you going to specify joint 
strategies for how to achieve things?
    And all that requires some form of evaluation. It doesn't 
necessarily have to be rocket science, but, yet, there just 
seems to be a lack of information used to figure out how to 
best serve America's entrepreneurs.
    Mr. Hanna. Sure. And the interpretation of that has got to 
be an extremely difficult part because it must fraught with 
both empirical/mathematical and subjective outcomes and 
processes.
    I guess my point is that if you make a mistake in this 
business, in your analysis, it doesn't necessarily lead to the 
conclusion that the program is good or bad. Is that fair?
    Mr. Shear. I think that, yes, it is important to basically 
recognize whatever the limitations of your evaluation are and 
to respond to the information based on that. So I would agree 
with that.
    Let me put it that way. There are certain times we have 
taken SBA data on, let's just say, their credit program, their 
7(a) program, and geocoded them so that we can analyze who is 
being served and things of that nature. There have been times 
where we take data that is available and will evaluate and will 
say how well we think a program is working or who it is 
serving.
    But, in this case, there is still a lot of information out 
there that isn't being collected for anybody to evaluate.
    Mr. Hanna. Uh-huh. Thank you.
    I yield back.
    Chairman Graves. Any other questions?
    Well, I want to thank you all for participating today.
    You know, the government has long recognized the need to 
aid entrepreneurs, but with 52 entrepreneur assistance 
programs, I think we have more confusion than clarity. And 
sometimes we can do a whole lot more with less. And I hope 
today's hearing is going to inspire the USDA and the SBA to 
reexamine their collaborative efforts to truly align with the 
GAO's recommendations and benefit entrepreneurs.
    Further, as we seek solutions to our budget crisis, this 
Committee is going to continue to examine these programs and 
discover which serve entrepreneurs most effectively, and we are 
going to look for opportunities to replace the duplicative and 
ineffective programs. That is all there is to it.
    And, with that, I would ask unanimous consent that Members 
have 5 legislative days to submit statements and supporting 
materials for the record.
    And, without objection, that is so ordered.
    Chairman Graves. And, with that, this hearing is adjourned. 
Thank you.
    [Whereupon, at 2:22 p.m., the Committee was adjourned.]



                            A P P E N D I X






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     Testimony of Michael A. Chodos


                      Associate Administrator for


                      Entrepreneurial Development


                   U.S. Small Business Administration


                               Before the


                     U.S. House of Representatives


                      Committee on Small Business


                             March 20, 2013

    Chairman Graves, Ranking Member Velazquez, and 
distinguished members of the Committee. Thank you for inviting 
me to testify about the Small Business Administration's (SBA) 
work to enhance collaboration, avoid duplication and improve 
data tracking within our entrepreneurial assistance programs. I 
am grateful for the opportunity to discuss the wide range of 
business counseling, capital access and procurement assistance 
programs SBA makes available to America's 28 million small 
businesses to help them start, grow, innovate and create jobs. 
I also look forward to discussing our extensive collaboration 
with other federal agencies and our ongoing efforts to evaluate 
our own programs and to make them more streamlined, effective 
and efficient.

    Entrepreneurs are the foundation of America's economic 
success. Roughly two-thirds of all net new private sector jobs 
are created by small businesses; and over half of America's 
working population either own or work for a small business. For 
60 years SBA has been there to provide assistance and support 
for small business' success; and since 2009, under 
Administrator Mills' leadership, SBA has been there to address 
and meet critical gaps as small businesses struggled through 
the deep economic crises of the last four years.

    In the past year alone, SBA and its resource partners 
counseled and trained over 1 million small businesses and 
helped thousands of new businesses start. SBA and its network 
of lenders also supported over $30 billion in loans to small 
businesses through its 7(a) and 504 loan program, and we helped 
agencies across the federal government to put over $90 billion 
in federal contracts in the hands of small businesses. SBA also 
leveraged a record $3.3 billion in capital for small businesses 
through the SBIC program; and since 2009 has supported over 
$3.3 billion in lending in our export loan programs.

    Alongside the many ways in which SBA helps small businesses 
grow and create jobs, we're also there for individuals and 
small businesses after a disaster. Most recently, within 90 
days after Super Storm Sandy struck, SBA approved more than $1 
billion in direct disaster loans.

    To implement its programs, services and disaster support, 
SBA connects directly with small businesses in communities 
across America. It does so directly through its nationwide 
network of SBA District Offices, Small Business Development 
Centers (SBDCs), Women's Business Centers (WBCs), SCORE 
chapters and Veteran's Business Opportunity Centers (VBOCs). 
And because so many of SBA's programs are delivered in 
partnership with others, we also help small businesses every 
day by collaborating with our very large network of private 
lenders, micro-lenders and investment funds in our lending and 
capital programs; with federal and state partners in our 
procurement, Small Business Innovation Research and export 
programs; and with university and non-profit partners in 
several of our innovative programs for supporting veterans' 
entrepreneurship.

    We work collaboratively every day to break down siloes and 
to work effectively with our federal, state and private-sector 
partners. But we know that there are always further 
opportunities to use taxpayer dollars wisely and to make things 
simpler and easier for our small business constituents. We know 
that navigating the federal government and its many programs 
and services can be daunting to a small business. For that 
reason SBA and our network of partners act as the ``Front 
Door'' to federal support for small businesses. We help them 
access our own programs and services, and also act as 
community-based and online guides to help small businesses get 
the help they need from whichever federal, state or local 
partner can serve that small business best.

    We appreciate the work of Mr. Shear and his team at the 
Government Accountability Office (GAO). Their reports on the 
important issues of fragmentation, overlap and data evaluation 
help SBA in its ongoing efforts to collaborate effectively with 
other federal agencies and to improve delivery of its own 
programs and services.

    Over the past several years, SBA has focused very 
intensively on opportunities for improving collaboration and 
coordination within its own network. Our research shows that 
counseling and business assistance services are vital to long-
term success, and our network counsels and trains over 1 
million entrepreneurs each year on topics ranging from business 
planning to financial analysis to marketing. We want to make 
sure that network is operating as efficiently and 
collaboratively as possible.

    For that reason, last year SBA's Offices of Entrepreneurial 
Development (OED) and Field Operations (OFO) convened the 
first-ever national meeting of representatives from each 
resource partner network. We identified concrete ways to break 
down barriers and collaborate effectively in local markets 
nationwide, and detailed strategies to improve their clients' 
access to and utilization of SBA programs and services. We 
followed up this historic meeting with a series of regional 
meetings with SBA district Office staff to further refine the 
next actions to improve collaboration. And we modified all 
Resource Partner grant agreements to make effective 
collaboration a core part of each grant going-forward. Today, 
SBA's District Offices, SBDCs, WBCs and SCORE chapters are more 
integrated and coordinated than at any time in SBA's history.

    SBA focuses intensively on opportunities for external 
collaboration and coordination of services, as well. At the 
same time, we recognize the ongoing need to identify and use 
the most promising practices for inter-agency collaboration, 
and we look forward to building on existing initiatives.

    SBA has participated in and led efforts to collaborate and 
share resources with USDA, Department of Commerce and HUD. We 
have also worked to leverage each other's outreach efforts to 
improve local small business access to the full range of 
economic development programs and services. For example, SBA 
participated in the Task Force on Travel & Competitiveness 
chaired by the Secretary of Commerce and the Secretary of the 
Interior, and contributed to the development of the Task 
Force's National Travel & Tourism Strategy released in May 
2012. In addition, in response to the historic drought, SBA, 
USDA, and the Department of Commerce, through its Economic 
Development Administration (EDA), worked collaboratively to 
conduct outreach to drought-impacted communities about 
available federal resources. Also, SBA has been working with 
the Department of Commerce and numerous other federal agencies 
on developing BusinessUSA.gov, the comprehensive, one-stop 
platform for businesses looking to access information, 
resources, programs and services available through the federal 
government.

    In another example, pursuant to their MOU executed in 2010, 
SBA and USDA are working together to promote awareness of each 
other's programs and services and to cross-refer business 
clients through their online websites and form their field 
offices. For example, SBA and USDA are working together to 
recruit small businesses from rural communities into the 
Historically Underutilized Business Zone (HUBZone) program. The 
HUBZone program's focus is to create jobs where they are needed 
most, and many designated HUBZones tend to be in rural 
communities.

    In another example, SBDCs partner with USDA to leverage 
both the USDA access to rural communities and the SBDCs 
business assistance services. SBDCs partner with the 
Cooperative Extension System, Rural Business Enterprise and the 
BioPreferred Program Offices to maximize assistance to small 
businesses in rural areas across the country. Several SBDCs 
across the country participate and receive USDA Rural Business 
Enterprise grants that finance and facilitate the development 
of small and emerging rural businesses through distance 
learning networks. And SBDCs are key to the counseling 
component of the E3 partnership led by DOC, EPA, USDA, 
Department of Energy and Department of Labor which has active 
projects in 20 states to integrate federal agency technical 
assistance tools and resources for more integrated factory and 
facility assessments and improvements.

    HUD and SBA have been collaboratively supporting small 
business development in distressed areas through HUD-financed 
Community Development Block Grant (CDBG) projects. Working 
together, the agencies are piloting ways to increase small and 
minority business utilization of HUD's CDBG, HOME, public 
housing and multifamily programs through access to surety bonds 
for the smallest contractors. HUD and SBA have also worked 
together intensively in recent years to identify ways to 
address and eliminate duplication of benefits in disaster 
response, lending and granting programs.

    SBA also partners with the Departments of Commerce, Labor 
and Education to coordinate federal efforts and leadership in 
supporting regional innovation through the Taskforce for the 
Advancement of Regional Innovation Clusters (TARIC). Through 
TARIC, SBA and 15 other federal agencies coordinate and 
collaborate to make their respective programs and services 
available to small business innovators through joint regional 
innovation cluster initiatives, including the Advanced 
Manufacturing Accelerator Initiative and the Rural Accelerator 
Challenge. By way of example, the Rural Accelerator Challenge 
made available a combination of $9 million in funding from EDA, 
Department of Agriculture, the Delta Regional Authority, and 
the Appalachian Regional Commission, along with technical and 
program support from nine additional agencies including SBA.

    SBA has also increased its collaboration with the DOC in 
the administration of its International Trade programs. As 
directed by the Jobs Act, SBA increased its nationwide network 
of Trade Finance Specialists co-located with the Department of 
Commerce staff at U.S. Export Assistance Centers, and has built 
Exporting expertise across the SBDC network with the training 
of over 200 new export counselors. The two agencies also 
participate actively in the inter-agency small business working 
group, chaired by SBA.

    While work remains to be done, I am very proud of our 
accomplishments and progress in the area of collaboration to 
date. A great deal of the credit should also go to our SBA 
District Office leadership; nation, state and local leadership 
in our SBDC, WBC, and SCORE networks; and our Cluster 
administrators and other partners.

    In addition to our work fostering collaboration within our 
own SBA family and with other agencies, the Agency has been 
working intensively on ways to improve the measurement and 
evaluation of our programs. SBA believes that measuring and 
evaluating effectiveness and outcomes is essential to 
maximizing performance. We teach this principle to small 
businesses every day; and we work hard to apply the same 
principles to our own management of the precious taxpayer 
resources entrusted to us.

    Internally, SBA already engages in extensive measurement of 
the activity and outcomes generated within our Resource Partner 
network. But we continually look for opportunities to improve 
that process.

    Starting in FY12, OED undertook a comprehensive 
modernization project for our Resource Partner data collection 
system, known as EDMIS (Entrepreneurial Development Management 
Information System) to enhance current data fields, improve 
budget and performance integration capabilities, and expand 
reporting capabilities. Additionally, we are also working with 
all our Resource Partners to identify and align all our 
respective surveying, polling and impact study methodologies to 
harmonize the data collected through these efforts and have a 
coordinated set of data sources between the Agency and its 
partners.

    Externally, in collaboration with DOC and other agencies, 
SBA is working with TARIC to implement rigorous data collection 
and evaluation for our cluster initiatives and to propagate 
best practices. In addition, our Office of International Trade 
is implementing joint outcome-based performance measures in 
collaboration with the Trade Promotion Coordinating Committee 
and its 18 member agencies.

    SBA is also participating in a series of inter-agency 
meetings in collaboration with the Performance Improvement 
Council to discuss data collection, program evaluation, and 
performance measures to create consistent and relevant 
standards across the agencies which support entrepreneurship. 
SBA is working with OMB and the Council of Economic Advisers on 
an interagency pilot with Commerce and USDA to pursue a cross-
program study of business technical assistance programs. One 
goal of the pilot is to determine whether SBA program data can 
be matched with Census data to accomplish the broader objective 
of measuring the impact these programs are having related to 
their stated mission. SBA and the Department of Commerce also 
jointly sponsor a ``Smarter Data, Smarter Policy'' initiative, 
the goal of which is to develop a consistent data set that is 
widely accessible to government statistical and business 
agencies.

    In closing, I want to thank you for the opportunity to 
testify before you today. As you know, the SBA, its Resource 
Partners and its many lending, federal sector and other 
partners have a critical mission to fulfill as our economy 
continues its recovery. Our goal is to support and strengthen 
America's 28 million small businesses. Through enhanced 
collaboration, improved performance metrics, and new service 
delivery tools, we are building an entrepreneurial ecosystem 
for the 21st Century and beyond.

    I look forward to answering any questions you may have. 
Thank You.
      Statement of Doug O'Brien, Deputy Under Secretary for Rural 
          Development, United States Department of Agriculture


              Before the House Committee on Small Business


                             March 20, 2013


    Chairman Graves, Ranking Member Velazquez, and members of 
the committee, I am pleased to have this opportunity to discuss 
USDA Rural Development's role in supporting and encouraging 
economic development of our Nation's rural communities.

    Since 2009, President Obama's plan for rural America has 
brought about historic investment in rural communities that has 
made them stronger and more vibrant. USDA Rural Development 
alone, has directly invested or guaranteed more than $131 
billion over the last four years in broadband, businesses, 
housing, safe water, community facilities and more that have 
benefited not only the communities our agency serves, but also 
the overall economy.

    We view our programs as building blocks for a successful 
rural community. Quality infrastructure encourages business and 
economic growth which in turn encourages housing development to 
serve the influx of new employees, and leads to additional 
necessities such as schools, hospitals, and emergency 
resources. USDA Rural Development programs address all of these 
community needs through grants, direct loans or guaranteed 
loans.

    In the Consolidated Farm and Rural Development Act (Con 
Act), Congress charged USDA with leading the Federal 
Government's efforts to ensure a prosperous rural America and 
declared this task ``so essential to the peace, prosperity, and 
welfare of all our citizens that the highest priority must be 
given to the revitalization and development of rural areas.'' 
Four decades later, the agency that I represent today, is 
responsible for implementing a suite of programs with the sole 
mission to increase economic opportunity and improve the 
quality of life for all rural Americans.

    Building on this history, President Obama in June of 2010 
created the White House Rural Council to improve coordination 
among Federal agencies and create more economic opportunity in 
rural America. Coordination between the Department of 
Agriculture and other government agencies to facilitate program 
delivery continues to strengthen. The comprehensive rural 
strategy is encouraging rural economic growth that is outpacing 
urban areas. President Obama and Secretary Vilsack have long 
believed that ``strong rural communities are key to a stronger 
America.''

    The economic literature confirms the importance of vibrant 
rural economies to the Nation's economy. For example, the 
Organization for Economic Cooperation and Development (OECD) 
recently released a report, Promoting Growth in All Regions, 
which says investments in rural places are vital for aggregate 
national economic growth and in many cases such investments 
have found that rural regions have, on average, enjoyed faster 
growth than urban regions.

    We believe, particularly at such a tenuous point for our 
Nation's economy, that we cannot leave significant growth 
opportunities in rural regions untapped. This study provides 
vigorous research and an explanation for why regional rural 
economies are so important to a Nation's overall economic 
health. This isn't the first report to make such a conclusion, 
nor is it news to those of us who work and live or represent 
rural America, but it is notable for its comprehensive analysis 
and recommendations that are important for rural economies. 
They include: investing in less-developed regions makes good 
economic sense; a pro-growth strategy on the assets of the 
region is the most beneficial and sustainable approach; 
policies that support education and training for low-skilled 
workers are critical; infrastructure development has the 
greatest impact when coordinated with other development 
policies; and formal and informal institutions that facilitate 
communication and collaboration in the region are vital. USDA 
and its partner agencies were already working on a number of 
these strategies.

    As you know, rural America has unique challenges and 
assets. Rural communities are characterized by their isolation 
from population centers and product markets and benefit most 
from initiatives that integrate local institutions and 
businesses with State and Federal agencies that have intimate 
knowledge of local needs. To address these unique challenges, 
Congress has provided USDA with a variety of programs that 
comprehensively attend to the rural dynamic.

    As the only Federal Department with the primary 
responsibility of serving rural areas, the presence of USDA 
field offices in every state helps us to serve the specific 
needs of local communities. USDA Rural Development employees 
are able to identify a wide range of community and economic 
development resources for locally elected officials, business 
owners, families, farmers and ranchers, schools, nonprofits, 
cooperatives and tribes. USDA Rural Development staffs are 
located throughout the nation and are members of the 
communities they serve and possess expert knowledge of the 
economic challenges and opportunities that exist in their 
particular region.

    Through USDA Rural Development's infrastructure development 
programs, we make investments in rural utility systems that 
helped improve and expand the rural electrical grid, provide 
clean drinking water to rural communities, and deliver faster 
Internet service to rural families and to businesses, allowing 
them to compete in the global economy. In 2012, we provided 
nearly 64,000 rural households, businesses and community 
institutions with new or better access to broadband Internet 
service, provided more than 8 million consumers with new or 
improved electric service, and provided 2.5 million of our 
borrower's customers with new or improved water or wastewater 
service.

    Through USDA Rural Development's business and cooperative 
loan, grant, and technical assistance programs, the agency 
helped over 9,500 rural small business owners and agricultural 
producers improve their enterprises, including those related to 
renewable energy. Beyond direct assistance to these business 
owners and producers, financial support from USDA also creates 
lasting economic development opportunities in the rural 
communities where the projects are located. Business and 
cooperative funding created or saved an estimated 52,000 rural 
jobs in 2012.

    Not only have we supported small businesses, but we also 
support the social infrastructure that makes rural communities 
attractive to small business owners and their employees. USDA 
Rural Development's Community Facilities loan and grant program 
provided assistance to construct or improve 215 educational 
facilities, and supported 168 health care projects--part of 
more than 1,400 Community Facilities projects nationwide in 
2012. Other key projects included support for local, rural 
emergency responders.

    The USDA Rural Development housing program ensures that 
rural families have access to safe well-built, affordable 
homes. In 2012, more than 153,000 families with limited to 
moderate incomes purchased homes utilizing our housing 
programs. We also helped about 7,000 rural individuals or 
families repair their existing homes under our home repair loan 
and grant program. More than 400,000 low and very-low income 
people were able to live in USDA-financed multi-family housing 
thanks to rental assistance.

    While USDA Rural Development's programs provide the 
critical tools for rural America's success, perhaps the most 
important element is how we use those tools: by having over 400 
offices in rural communities across the country that provide us 
the ability to deal directly with the businesses, individuals 
and communities that many times do not have the capacity to 
otherwise access Federal programs.

    Congress had the forethought to strategically place 
comprehensive programs for rural America in one agency: Rural 
Development. To make sure that the community economic 
development mission is met, we always look for opportunities to 
collaborate with other agencies to get the best results in 
rural communities. We appreciate the ongoing efforts of the 
U.S. Government Accountability Office (GAO) to look at ways 
that the Federal government can collaborate more effectively.

    In the August 2012 report, Entrepreneurial Assistance: 
Opportunities Exist to Improve Programs' Collaboration, Data-
Tracking, and Performance Management, GAO recommended that the 
Secretaries of Agriculture, Commerce, and Housing and Urban 
Development and the Administrator of the Small Business 
Administration (SBA) conduct more program evaluations to better 
understand why programs have not met performance goals and 
their overall effectiveness. In response, USDA Rural 
Development's Rural Business-Cooperative Service is developing 
a strategic plan that includes an initiative to improve the 
quality of performance measurement within the next two years. 
GAO also recommended that the Secretaries of Agriculture, 
Commerce, and Housing and Urban Development, and the 
Administrator of SBA work together to identify opportunities to 
enhance collaboration among programs, both within and across 
agencies. The Obama Administration has initiated steps that 
provide agencies with a mechanism to work together to identify 
opportunities to enhance collaboration among programs. For 
example, in the Administration's fiscal year 2013 budget 
submission, a cross-agency priority goal was introduced to 
increase services to entrepreneurs and small businesses. One of 
the objectives under this goal is to utilize programs and 
resources across the federal government to improve and expand 
the reach of training, counseling, and mentoring services to 
entrepreneurs and small business owners. Furthermore, the 
Administration established an interagency group--including 
Commerce, SBA and USDA--that aims to streamline existing 
programs, improve cooperation among and within agencies, ease 
entrepreneurs' access to the programs that are right for them, 
and increase data-based evaluation of program performance.

    In 2012 USDA Rural Development provided five webinar 
training sessions for Rural Business employees in the field and 
national offices who track performance data in the agency's 
Guaranteed Loan System (GLS) to improve the collection and 
maintenance of data related to program performance measures and 
to improve data quality. We restructured the field office GLS 
support team by designating a lead and backup for each region. 
These individuals received additional GLS training, including 
recording and tracking performance measures. We also conducted 
bi-annual surveys to assess the level of collaboration between 
SBA and USDA Rural Development and to identify best practices 
for increased collaboration. These actions, in conjunction with 
customer service scores, are helping us evaluate customer 
satisfaction.

    The memorandum of understanding (MOU) USDA signed with the 
SBA in 2010 helped lay the foundation for enhanced inter-agency 
collaboration on economic development and improve service 
delivery to small businesses in underserved rural areas. Over 
the course of the past year, USDA and SBA held a series of 
joint roundtables across the country focused on increasing 
investment in rural communities. I attended several of these 
roundtables and found the discussions to be terrifically 
valuable. The meetings have presented opportunities to hear 
from stakeholders of both agencies about the challenges--and 
benefits--of investing in rural America.

    In response to the roundtable discussions, USDA Rural 
Development leaders from our Rural Business team have been 
meeting with SBA to explore possibilities to increase micro 
lending availability to rural constituents.

    We determined that there are substantial amounts of 
resources in revolving funds created through several of our 
programs that are available for increasing investment in rural 
communities. We are actively pursuing the relending of these 
funds by meeting with our partners during the first quarter of 
this calendar year. Participants in these roundtables include 
our revolving loan fund partners, SBA, SBA Certified 
Development Companies, Small Business Development Centers, 
commercial lenders and other community and economic development 
stakeholders.

    Indeed, one suggestion we received was the need to create 
consistent and streamlined application processes. We are 
researching options with SBA to make improvements and 
standardize the process so it is less burdensome on applicants 
while also ensuring proper due diligence to protect the 
taxpayer from unnecessary defaults.

    Building on these successes, in 2012, USDA signed a MOU 
with the American Association of Community Colleges to 
strengthen rural economies throughout the Nation. National, 
State and local staffs around the Nation are diligently and 
creatively working to find ways to coordinate with stakeholders 
and colleagues in other Federal agencies to leverage resources 
and create jobs by supporting businesses. For example, USDA 
Rural Development in California has recently joined into a MOU 
with the California Community Colleges Chancellor's Office. In 
conjunction with this effort, the two agencies are partnering 
with local community colleges and Small Business Development 
Centers--financed through SBA--to present capital readiness 
events throughout the State. The events provide information and 
resources for small businesses seeking financing.

    USDA Rural Development obviously takes pride in our 
uniquely rural focus and our local program delivery model which 
differentiates us from other Federal agencies. The direct 
personal contact between our agency personnel and lenders, 
borrowers, communities, families and individuals is invaluable 
and provides in-person technical assistance that would 
otherwise be unavailable. This intimate relationship encourages 
agency personnel to work collectively and creatively to make 
our programs more complementary to those of other agencies. By 
doing so, we are able to extend our reach and assist more 
communities.

    Engaging with members and stakeholders on the White House 
Rural Council has also opened doors to improved collaboration 
and coordination. Last summer, I participated in the Regional 
Innovation in Rural America forum to develop strategies for 
leveraging infrastructure investments in rural communities that 
help create jobs and boost economic development. Two programs 
highlighted at this forum were the Rural Jobs and Innovation 
Accelerator challenge and the Stronger Economies Together (SET) 
initiative.

    The Rural Jobs and Innovation Accelerator Challenge (RJIA) 
leverages existing financial and technical assistance resources 
from 13 Federal agencies and bureaus. Grant winners were 
announced on August 1, 2012. To date, projects across 12 States 
have received Federal funding to help strengthen regional 
industry clusters by identifying and maximizing local assets, 
connecting to regional opportunities, and accelerating economic 
and job growth across rural regions.

    Meanwhile the Stronger Economies Together (SET) initiative 
enables rural communities and counties to work together to 
implement multi-county economic blueprints to build on a 
region's current and emerging strengths. USDA Rural Development 
launched SET with land-grant university partners and Regional 
Rural Development Centers two years ago. SET is now active in 
nearly 40 regions in 19 States.

    These are but two examples of USDA's collaborative efforts 
with other agencies across Federal government to support rural 
communities that are building durable, multi-county coalitions 
that foster economic development on a regional scale. In 
addition to providing direct economic benefits, regional 
collaboration allows rural communities to capitalize on 
economies of scale in infrastructure and public services, to 
encourage the development of specialization in industrial 
sectors that would make them more competitive, and to locate 
facilities and services where they provide the greatest benefit 
at the lowest cost. Leveraging Federal resources to more 
effectively support regional economic development efforts 
continues to be an agency best practice.

    USDA Rural Development has a long standing record of 
consistently implementing new collaborative procedures and 
meeting increased demand for our services in the face of 
declining funding levels and enormous staff loses. We've done 
so through hard work and determination and my implementing 
Secretary Vilsack's ``Blueprint for Stronger Service.'' Under 
the blueprint, the Department identified 379 recommendations 
for improving USDA's office support and operations. To realize 
further efficiencies, USDA Rural Development consolidated 
offices that were, in most cases, within 20 miles of other USDA 
offices. In other cases, technology improvements, advanced 
service centers, and broadband service have reduced the need 
for significant numbers of brick and mortar facilities.

    Since the beginning of fiscal year 2012, USDA Rural 
Development has reduced nearly 18 percent of its workforce or 
1,053 people. In spite of those reductions, USDA Rural 
Development has been able to maintain a unique connection to 
rural America--a connection like no other Federal agency--by 
aggressively implementing the Secretary's Blueprint and Rural 
Development's Seven Strategies for Economic Development. We are 
known as an agency that can build a community from the ground 
up. Today, we are helping rural America prepare for the global 
challenges of the 21st century by looking not only within a 
community for defining strengths and opportunities, but to 
regions and strategic partners, where one community or program 
can compliment and draw upon the resources of another to create 
jobs and strengthen economies.

    We remain committed to increasing economic opportunity and 
improving life for rural Americans. USDA Rural Development is 
helping rural America resolutely move forward. Our presence in 
the rural communities we serve, combined with our local 
knowledge and uniquely rural focus, continues to set us apart 
from other Federal programs. We know our investments will pay 
dividends for years to come.

    I appreciate the opportunity to testify before members of 
the Committee also appear on this panel with my distinguished 
colleagues at SBA and GAO. As you can see from the testimony 
above, we work well together and I anticipate that we will 
continue to do so in the future. I welcome the chance to engage 
in a dialog on even more ways we can further support American 
competiveness and growth. Thank you for your support of USDA 
Rural Development programs. And at this time, I am happy to 
answer your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Enclosure

                      Committee on Small Business


  Hearing: ``Entrepreneurial Assistance: Examining Inefficiencies and 
                              Duplication


               Across Federal Programs,'' March 20, 2013


                 Responses to Questions for the Record


                       William B. Shear, Director


              Financial Markets and Community Investment,


                    Government Accountability Office


    Based on GAO's analysis, how extensive is collaboration 
between SBA and USDA across rural America?

    In August 2012, we reported that agencies' efforts to 
collaborate among programs that support entrepreneurs have been 
limited. The agencies have agreed to work together by signing 
formal agreements to administer some of their similar programs. 
For example, SBA and USDA entered into a memorandum of 
understanding (MOU) in April 2010 to coordinate their efforts 
aimed at supporting businesses in rural areas. Under the MOU, 
USDA and SBA agreed that their field offices would advise 
potential borrowers of the other agency's programs that may 
meet their small business financing needs and coordinate the 
referral of small business applicants to one another where 
appropriate, work to make each agency's programs more 
complementary by minimizing differences in program fees and 
processing and closing procedures, and develop joint training 
seminars on each agency's programs. USDA's April 2011 survey of 
state directors indicates progress under the MOU in several 
areas, including field offices advising borrowers of SBA's 
programs, referring borrowers to SBA and its resource partners, 
and exploring ways to make USDA and SBA programs more 
complementary. However, the agencies have not yet implemented 
other good collaborative practices, such as establishing 
compatible policies and procedures to better support rural 
businesses.

    2. For the March 20, 2013 hearing USDA's written testimony 
discussed potentially standardizing certain funding 
applications with SBA. How does this relate to GAO's 
recommendations?

    In August 2012, we recommended that the Director of the 
Office of Management and Budget; the Secretaries of the 
Departments of Agriculture, Commerce, and Housing and Urban 
Development; and the Administrator of the Small Business 
Administration should work together to identify opportunities 
to enhance collaboration among programs, both within and across 
agencies. In prior work, we identified practices that can help 
to enhance and sustain collaboration among federal agencies, 
which can help to maximize performance and results, and have 
recommended that the agencies follow them.\3\ These 
collaborative practices include identifying common outcomes, 
establishing joint strategies, leveraging resources, 
determining roles and responsibilities, and developing 
compatible policies and procedures. USDA's discussion of 
potentially standardizing certain funding applications with SBA 
is consistent with the collaborative practice of establishing 
compatible policies, procedures, and other means to operate 
across agency boundaries.
---------------------------------------------------------------------------
    \3\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, D.C.: Oct. 21, 2005).

    3. In February 2012, GAO's annual duplication report notes 
an intention to recommend that Congress tie funding to program 
efficiency. However, GAO's comprehensive August 2012 report did 
not make this recommendation. Please explain what changed as 
GAO put together the August 2012 report that led away from this 
---------------------------------------------------------------------------
recommendation?

    In February 2012, we reported that we expected to recommend 
in a subsequent report that Congress tie funding more closely 
to a program's demonstrated effectiveness. However, based on 
additional analysis, we concluded that decisions about funding 
and restructuring would be difficult for Congress without 
better performance and evaluation information about the various 
fragmented programs. Thus, we concluded that making this 
recommendation would be premature and that the agencies must 
first collect the necessary information and conduct program 
evaluations needed to inform funding decisions by Congress.

    Specifically, in August 2012, we concluded that agency 
performance and evaluation information had a number of 
deficiencies. Agencies typically do not collect information 
that would enable them to track the services they provide and 
to whom they provide those services. As a result, we 
recommended in August 2012 that the Secretaries of Commerce, 
Housing and Urban Development, and Agriculture and the 
Administrator of the Small Business Administration consistently 
collect information that would enable them to track the 
specific type of assistance programs provide and the 
entrepreneurs they serve and use this information to help 
administer their programs. Without such information, the 
agencies may not be able to administer the programs in a way 
that will result in the most efficient and effective federal 
support to entrepreneurs.

    4. Please provide a list with date and type of all agencies 
responses to the August 2012 report including 60-day letters, 
formal, and technical comments.

    Technical Comments Received on Draft Report

    HUD (August 1, 2012)

    SBA (August 3, 2012)

    Formal Comment Letters Received on Draft Report

    Commerce (dated August 6, 2012)

    HUD (dated August 10, 2012)

    USDA (dated August 1, 2012)

    60-day Letters Received on Final Report

    Commerce (dated October 22, 2012)

    HUD (dated December 5, 2012)

    SBA (dated February 13, 2013)

    USDA (dated November 12, 2012)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Committee on Small Business

    Hearing: ``Entrepreneurial Assistance: Examining 
Inefficiencies and Duplication across Federal Program''

    March 20, 2013

    Questions for Mr. Doug O'Brien, United States Department of 
Agriculture (USDA):

    1. Please provide a list of all programs and operations, 
specifically those mentioned in responding to Rep. Luetkemeyer 
during the March 20, 2013 hearing, related to a Blueprint for 
Stronger Service, which delineates programs and savings 
occurred through streamlining and cuts.

    RESPONSE: USDA Rural Development made contributions to the 
$700 million saved under the Secretary's Blueprint for Stronger 
Service by consolidating and reorganizing its field office 
structure, providing projected savings of $758,000 annually. 
These efforts are continuing and are expected to result in 
additional savings over the next few years. Rural Development 
achieved additional savings of $1.3 million with reductions in 
printing, supplies and promotional items. Furthermore, the 
Agency anticipates savings from data center consolidation at 
our National Information Technology Center and changes to the 
Working Capital Fund and Greenbook charges. Those savings are 
cumulative and have not been broken down by individual 
agencies.

    Blueprint for Stronger Service (Departmental Chart)


------------------------------------------------------------------------
  Savings/Efficiency Breakdown Initiative    Savings/Efficiency Realized
------------------------------------------------------------------------
Office Closures                                              $37 million
------------------------------------------------------------------------
Real Property                                             $259.2 million
------------------------------------------------------------------------
Disposals/Terminated Projects (not
 including Office Closures)
------------------------------------------------------------------------
Sustainability - Energy Savings                             $6.5 million
------------------------------------------------------------------------
Improved Space Management                                  $13.2 million
------------------------------------------------------------------------
Strategic Sourcing                                           $62 million
------------------------------------------------------------------------
IT Service and Hosting Efficiencies                          $20 million
------------------------------------------------------------------------
Streamlined IT Purchases                                     $31 million
------------------------------------------------------------------------
Travel Efficiencies                                         $129 million
------------------------------------------------------------------------
Reduced publications/printing                                 $8 million
------------------------------------------------------------------------
Improved oversight - Advisory Contracts                      $56 million
------------------------------------------------------------------------
Centralized Supply Purchases                                 $27 million
------------------------------------------------------------------------
Promotional Item Reductions                                     $300,000
------------------------------------------------------------------------
Agency-specific initiatives (e.g., process                   $55 million
 improvements and organizational changes)
------------------------------------------------------------------------
Total                                                     $704.2 million
------------------------------------------------------------------------

    In addition to the Blueprint for Stronger Service, since 
the beginning of fiscal year 2012, USDA Rural Development has 
reduced nearly 18 percent of its workforce or 1,053 people. 
Those reductions will save the Agency an estimated $95,359,680 
per year in staff costs in future years.

    2. Please provide examples within the Rural Development 
branch of the USDA, other than salaries and expenses, where the 
Agency has instituted cuts to programs to generate savings.

    RESPONSE: Rural Development (RD) programs are financial 
assistance programs; that is, they provide grants, loans, and/
or loan guarantees. Thus, cuts in budget authority, such as 
those experienced by the sequester, decreases the amount of 
financial assistance to rural constituents.

    Nevertheless, RD continues to improve the efficiency in the 
overall delivery of our programs, which results in savings. For 
example:

    <bullet> Regional Field Structure. Rural Business Service 
(RBS) improved program efficiency by developing a regional 
field structure across ten regions. This regional structure 
allows the National Office to (1) provide direction and 
oversight for all RBS programs nationally, with reliance on two 
Regional Coordinators and ten RBS Team Leaders who provide 
guidance to the State RBS Program Directors in their regions 
and (2) reduce the amount of travel and training expenses by 
reducing the number of staff that attend training. Typically, 
Regional Coordinators work with National Office staff to train 
Team Leaders who then provide guidance and direction to the 
Program Directors in their region. This approach also improves 
communication across the agency, resulting in greater 
consistency in program delivery.

    <bullet> Intermediary on-line reporting system. Implemented 
in 2011, RBS now requires all Intermediary Relending Program 
(IRP) and Rural Microentrepreneur Assistance Program (RMAP) 
intermediary lenders, and strongly encourages Rural Economic 
Development Grant and Rural Business Enterprise Grant revolving 
loan fund intermediaries, to provide their quarterly and 
semiannual reports through an on-line system, Lender Interface 
Network Connection (LINC). Previously, 450 IRP and nearly 100 
RMAP lenders used spreadsheets and other software to develop 
their quarterly and semiannual reports, submitted the reports 
to the Agency in paper copy, and the Agency staff inputted the 
appropriate data into the Agency's data system. With the new 
system lenders access the Agency data base through LINC and 
input their data directly into the Agency's data system. In 
addition to benefiting efficiency, the LINC system also 
improves on the completeness and integrity of the lenders data.

    <bullet> Centralizing Guaranteed Housing Process. The Rural 
Housing Service (RHS) directed each State Office to centralize 
the loan guarantee process for the Single Family Housing 
Guaranteed program. The purpose of the initiative is to 
maximize efficiencies that enable a reduction in staff time 
while still meeting audit requirements and providing states 
flexibility. Each state was instructed to centralize the 
guarantee process into one entry point, and then electronically 
distribute workflow to the appropriate workstation where the 
designated employee was located. The purpose was not to 
reassign employees to a central office location, but to deploy 
technology for a process improvement as a remedy for staff 
reductions. The result of the centralization initiative has 
been a great success. All states have centralized their 
guarantee workflow process or are in the process of 
implementing it. Some states have implemented this process 
improvement to other Rural Development programs.

    <bullet> Rural Alaska Village Grant Program. The Rural 
Utilities Service has also undertaken streamlining initiatives 
to improve performance and accountability measures. In FY 2010, 
we launched a process improvement project to address issues 
related to the Rural Alaska Village Grant Program. A Steering 
Committee composed of senior officials from both the national 
and state offices of USDA Rural Development, Alaska Department 
of Environmental Conservation, Alaska Native Tribal Health 
Consortium, Indian Health Service, Environmental Protection 
Agency and the Denali Commission was formed and convened in 
Anchorage. In June of 2011, the partners, signed an MOU 
outlining a streamlined application process, new grant 
agreements, improved accountability measures and other critical 
documents. Today, we are seeing the results of those efforts 
with projects being built serving Alaskan villages, many for 
the first time. Based on these successes, we are in the process 
of codifying the streamlining of this program through a 
regulation that we plan to announce later this year.

    3. As the Government Accountability Office (GAO) August 
2012 report entitled, ``Entrepreneurial Assistance: 
Opportunities Exist to Improve Programs' Collaboration, Data-
Tracking, and Performance Management,'' found that USDA did not 
track program information on entrepreneurial assistance 
activities for various programs, please explain how USDA is 
ensuring compliance with government standards for internal 
controls.

    RESPONSE: USDA is continually seeking ways to better 
achieve agency missions and program results while working to 
address and implement program changes and improve operational 
processes.

    The GAO report indicated that for all its programs, USDA 
collects detailed information on the industry of each of the 
entrepreneurs it supports as well as on how entrepreneurs use 
program proceeds. USDA seeks to build on this foundation and 
continuously improve the ability to track and measure 
performance information. For example, Rural Business-
Cooperative Service (RBS) has reviewed and updated its policies 
regarding collecting data relating to program performance 
measures. Objectives include building consistency with policies 
and procedures of other Federal agencies administering similar 
programs (e.g., SBA and EDA), building consistency across all 
RBS programs, and improving the integrity of data. The draft of 
updated policies was completed in October 2012. RBS provided 
training to National Office and field office staff through a 
series of webinars and published the updated policies and 
procedures in an Unnumbered Letter dated January 18, 2013. The 
text of the Unnumbered Letter is located on the USDA Rural 
Development website.

    RBS will continue to conduct training to improve data 
collection and maintenance of data related to program 
performance measures and to improve data quality. We now 
conduct bi-annual surveys to assess the level of collaboration 
between SBA and USDA Rural Development and to identify best 
practices for increased collaboration. These actions, in 
conjunction with Customer Service Scores, are helping us to 
continually evaluate program effectiveness and satisfaction.

    Currently, RBS gathers data on all its programs and 
projects, which is analyzed to assess program effectiveness. 
RBS conducts regular evaluations of programs on both national 
and state levels. These reviews rely on data maintained in an 
electronic database as well as project files. Management 
Control Reviews (MCRs) are a process that Rural Development 
uses to assess program effectiveness. The MCR process examines 
a particular program and how it is administered across the 
country. The Business and Cooperative Program Assessment Review 
is an RBS process that examines how individual states 
administer all of Business and Cooperative Programs. Both tools 
identify recommendations to enhance the effectiveness of RBS 
programs.

    USDA continuously evaluates opportunities to keep up with 
advances in information technology and implement changes when 
possible to address management and performance challenges in 
areas at the greatest risk of waste, fraud, abuse, and 
mismanagement.

    4. Both the Small Business Administration's (SBA's) and 
USDA's written testimony references an interagency group which 
was created to develop an action plan for improved 
collaboration as well as a strategy for data collection. Please 
provide the Committee with a list of all meetings held thus far 
including the number of agency representatives and locations. 
Further please provide any action or strategic plans developed 
by this interagency group. If none have been made at this time, 
please provide a timeline for when these are expected.

    RESPONSE: The Evaluation of Business Technical Assistance 
Programs working group has increased the collaboration of 
agencies that operate business related technical assistance 
programs. The primary goal of the group is to assess the 
effectiveness of technical assistance programs for small 
businesses and to facilitate the sharing of best practices in 
this area across the working group agencies.

    The numbers of attendees have varied at each meeting, 
ranging from between 10 and 25 attendees per meeting. Attendees 
include representatives from the Office of Management and 
Budget, the Council of Economic Advisers, and the Department of 
Agriculture, the Department of Commerce, and the Small Business 
Administration. The meeting dates and locations are shown in 
the table below:



------------------------------------------------------------------------
               Meeting Date                           Location
------------------------------------------------------------------------
11/20/12                                            New Executive Office
                                                                Building
------------------------------------------------------------------------
12/18/12                                          White House Conference
                                                                  Center
------------------------------------------------------------------------
1/15/13                                             New Executive Office
                                                                Building
------------------------------------------------------------------------
1/30/13                                           White House Conference
                                                                  Center
------------------------------------------------------------------------
2/8/13 (Sub-group on SBA)                         White House Conference
                                                                  Center
------------------------------------------------------------------------
2/19/13                                                  Conference Call
------------------------------------------------------------------------
4/2/13                                            White House Conference
                                                                  Center
------------------------------------------------------------------------


    The Evaluation of Business Technical Assistance Programs 
working group is in the process of determining what information 
is currently available on involved agencies' business technical 
assistance programs, as well as what information could be 
obtained that could then be used to measure the impact and 
assess the effectiveness of the programs. Involved agencies are 
currently taking steps to assess the feasibility of doing a 
pilot evaluation. Once the pilot is complete, the group will 
assess the results and determine whether an evaluation model 
can be established for use across the Federal Government. 
Because of the early stages of these efforts, a more exact 
timeframe for this work is not available.

    5. USDA's written testimony indicated that USDA's Rural 
Business-Cooperative Service is developing a strategic plan 
that includes an initiative to improve the quality of its 
performance within the next two years. Please delineate the 
milestones within this plan and explain the benefits and goals 
of this strategic plan.

    RESPONSE: In 2012, Rural Business-Cooperative Service (RBS) 
began an agency-wide effort to develop a strategic plan aimed 
at enhancing effectiveness and efficiency. The plan included a 
focus specifically on program performance and evaluation. The 
goals were to:

          1. Maintain and promote justifiable performance 
        measures with a continued emphasis on job creation;

          2. Maximize capabilities of current data collection 
        system and process to better position the agency to 
        conduct broader program analysis; and

          3. Evaluate potential for additional performance 
        measures, which more thoroughly reflect outcomes of 
        specific programs.

    The benefits to be obtained through the implementation of a 
strategic plan are primarily the ability of RBS to deliver its 
programs more effectively and efficiently to adjust to changes 
in its budget and staffing levels, and to help RBS plan a more 
orderly succession of leadership as personnel changes take 
place.

    The strategic plan referenced in the written testimony is 
in draft form pending final budget numbers as the Agency 
continues to seek opportunities to improve program performance. 
With this caveat in mind, the current draft identifies 
initiatives in six primary areas:

    <bullet> Budget and staffing

    <bullet> Outreach

    <bullet> Performance Measurement

    <bullet> Program Review Process

    <bullet> Leadership Development and Succession Planning

    <bullet> IT Needs and Technology

    As RBS was drafting the strategic plan in FY2012, we began 
to identifying general timeframes for implementing each of the 
six initiatives. These timeframes ranged from about 9 months 
(outreach) to about 30 months (IT Needs and Technology). The 
ability to meet and complete any of these initiatives will 
depend, in part, on the availability of funds.

    6. In terms of roundtables held with SBA as a form of 
collaboration, please provide the Committee with a list of each 
roundtable held, its location, number of attendants (please 
separate for number of USDA officials, number of SBA officials, 
and number of small firms/entrepreneurs), and a summary of 
responses.

    RESPONSE: There were six roundtable held. Their dates, 
location, and breakdown of participants are shown in the 
following table:



--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      USDA         SBA          Other
                    Date                             Location                     Venue                 Total      officials    officials   Participants
--------------------------------------------------------------------------------------------------------------------------------------------------------
9/27/2011..................................              Raleigh, NC  North Carolina State                    32            3            3            26
                                                                       University Park Alumni
                                                                       Center.
--------------------------------------------------------------------------------------------------------------------------------------------------------
10/26/2011.................................           Saint Paul, MN  Agri Bank Conference Room....           19            3            2            14
--------------------------------------------------------------------------------------------------------------------------------------------------------
12/15/2011.................................             Syracuse, NY  Dairylea Cooperative Building           40            3            2            35
--------------------------------------------------------------------------------------------------------------------------------------------------------
4/12/2012..................................             Columbus, OH  Columbus Dispatch Kitch Event           27            2            2            23
                                                                       Room.
--------------------------------------------------------------------------------------------------------------------------------------------------------
2/14/2012..................................               Fresno, CA  Fresno Council of Government            27            3            2            22
                                                                       Conference Room.
--------------------------------------------------------------------------------------------------------------------------------------------------------
6/20/2012..................................               Denver, CO  Rural Development State                 16            3            2            11
                                                                       Office.
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Summary of Discussions--Challenges and Opportunities: Note: 
The following represent the views of the community 
participants, not the USDA or SBA.

    <bullet> Need to take advantage of existing programs and 
funding because it appears unlikely that new programs will be 
developed any time soon. At the same time, there is concern 
that we may be driving up demand for programs when we are 
experiencing a decrease in program funding. This has the 
potential to create ill will among current/future participants.

    <bullet> The SBIC platform could spur investment in low and 
moderate income areas of the country, especially rural areas. 
Research shows that funds that proactively invest in low and 
moderate income areas slightly outperform their peers. There 
are opportunities in these areas, and SBA wants to develop 
partnerships to take advantage of those opportunities.

    <bullet> The possibly of creating a rural SBIC was brought 
up. SBICs are asking how sustainable the agricultural economy 
is. While an SBIC with strictly a rural focus could be a 
challenge, a fund with rural incentives and rural targets would 
be a real possibility. USDA and SBA need to do a better job of 
education and connecting rural lenders with SBICs.

            SBICs need to be educated about how they can best 
        work with rural lenders.

            The main challenge for having SBICs invest in rural 
        is connecting dots, mitigating risks, and educating 
        rural lenders about how SBICs could help.

            A similar challenge is the uncertainty and a lack 
        of knowledge from rural lenders about how SBICs could 
        help. An organization such as Agribank or Agstar would 
        be a good resource to educate SBICs about rural 
        investment opportunities, or offer general insight on 
        the agriculture and rural economy. This would all be 
        part of the education process.

    <bullet> SBICs are looking to invest in proven companies 
with about $2-4 million in operating funds. Anything under $2 
million typically goes to angel investors. SBICs are able to 
partner among each other for larger projects. Government 
programs that are available to leverage these investments 
should be promoted more than they are.

    <bullet> Angel investor attendees also stressed the 
importance of concentrating some resources and investment on 
companies with $2 million or less in operating funds. How can 
angel networks access funding in a timely manner for vetted 
businesses? Access to capital for business with under $2 
million in operating funds is concerning. These businesses need 
access to capital now and sometimes waiting for the government 
review process takes too long. A system where vetted businesses 
could qualify for immediate funding, which would be paired with 
angel investment, would be beneficial.

    <bullet> One challenge is finding a way to bring all of 
these different resources together and make them available to 
businesses and entrepreneurs in and easy-to-understand method.

    <bullet> USDA and SBA need to focus not just on jobs, but 
also on smaller self-employers and entrepreneurs that are not 
looking to constantly grow into something bigger. Most 
entrepreneurs just want to make enough to take care of their 
family. Partnering with ``big businesses'' is very important, 
but USDA and SBA cannot forget about smaller firms.

    <bullet> One challenge frequently mentioned was the need 
for greater technical assistance to build capacity for small 
and micro businesses.

    <bullet> The current workforce does not align with 
education, especially technical education. Rural businesses, 
especially manufacturers, cannot find employees with the skills 
required due to a shortage of people with the necessary 
technical degrees.

    <bullet> One of the ways that USDA and SBA will be able to 
continue sustained contributions to rural communities and 
residents will be through meetings like these.

            Rural investor roundtables like these should occur 
        throughout the year.

            Rural investor roundtables should include other 
        colleagues and partners from various regions throughout 
        the state.

            Investor roundtables should also include a greater 
        number of banks and lenders

    <bullet> More foundations should be participating with USDA 
to:

            Conduct infrastructure and transfer of wealth 
        studies/discussions with community leaders;

            Identify philanthropic partnership opportunities

            Further discuss ways to stop transfer of wealth/
        talent (brain drain) out of rural communities; and

            Address challenges involved with access to capital 
        in rural areas, such as upstate New York.

    <bullet> USDA and SBA should explore buying down risk 
through bank guarantees and investigate whether or not 
endowment dollars (from universities for example) could be used 
to make strategic investments (similar to loan guarantees) in 
rural communities. It was also pointed out that State pension 
funds are an ``untapped resource'' for investment in small 
businesses.

    <bullet> More lenders should move beyond reluctance to 
participate with USDA and loan guarantee programs. The process 
is easier than some would think.

    <bullet> There is interest from funders making local 
investments with endowments and they could be investment 
partners with some of the participants at the roundtable.

    <bullet> USDA and SBA should continue to reach out to 
existing stakeholders and to new lenders through periodic 
newsletters and emails detailing new programs, funding 
opportunities, and other roundtable functions. Share program 
funding opportunities and experience with government partners 
on past projects.

    7. USDA's written testimony stated that bi-annual surveys 
are conducted to assess collaboration between USDA and SBA. 
Please provide the Committee with copies of the two most recent 
surveys, number of respondents, and a summarized list of the 
results to the survey questions.

    RESPONSE: In 2011, RBS conducted two surveys of state 
offices to assess the level of collaboration between USDA and 
SBA and identify best practices for increasing collaboration. 
The surveys conducted in April and October of 2011, had 40 and 
41 respondents respectively. Each survey asked the same 17 
questions, which mirrored the expectations outlined in the MOU. 
Results from both surveys were similar.

    General conclusions from the survey:

          1. Areas of strong collaboration include referrals, 
        outreach, and interagency communication. For example, 
        in both surveys all respondents said that they do 
        encourage their resource partners to make referrals to 
        SBA and its resource partners.

          2. Areas where collaboration could be improved 
        include linking to websites and special projects. USDA 
        is part of the interagency team that helped to develop 
        content for BusinessUSA.gov, the website that will 
        serve as a one-stop shop for entrepreneurs by linking 
        all applicable federal assistance and resources. 
        Additionally, since the survey was conducted, RBS and 
        SBA co-hosted several roundtables across the country, 
        as described in the response to the previous question.

    Below are the questions and responses from the two surveys.

    RBS - SBA Collaboration Survey: Summary of Results

    Highlights:

    <bullet> 17 questions

    <bullet> 40 states responded in April and 41 in October

    <bullet> Areas of strong collaboration include referrals, 
outreach, and interagency communication

    <bullet> Areas with weaker collaboration include linking to 
SBA website and identifying one special joint project.

    <bullet> Most commonly cited barriers to collaboration 
paperwork and that most lenders do not want to deal with two 
government agencies.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    8. For the Memorandum of Understanding (MOU) between SBA 
and USDA regarding rural development, set to expire in April 
2013, please address:

          a. Whether the current MOU is being extended, 
        altered, or voided?

    RESPONSE: USDA is currently drafting proposed amendments to 
the MOU. These amendments will extend the MOU nationwide, 
strengthen collaboration within the Agency's intermediaries and 
networks of resource partners, and broaden participation in the 
MOU by adding the USDA Farm Service Agency as a partner.

          i. If it is being altered please provide the 
        Committee with a copy of the new MOU as soon as it is 
        available.

    RESPONSE: The Agency will provide the Committee with an 
executed copy of the MOU as requested once it is available.

          b. Whether the MOU, which was originally only in 10 
        states, was ever rolled out nationally? If not, will a 
        future MOU between USDA and SBA are nationwide?

    RESPONSE: Yes, USDA rolled out the MOU nationally. On April 
11, 2011, RBS sent a letter to Rural Development State 
Directors to encourage all states to implement the MOU. The 
letter specifically stated that ``. . . RBS is grateful to the 
17 states that initially implemented the MOU; the MOU applies 
to all USDA National and State Offices.''

    Furthermore, RBS used the 2011 collaboration surveys to 
assess whether the MOU was being implemented in all states and 
further encourage national implementation. The survey results 
showed that the MOU was being implemented nationally. Forty-one 
out of 47 State Offices responded to the survey. The 
respondents demonstrated that they collaborate with SBA in a 
variety of ways, usually by providing referrals and conducting 
joint training and outreach.

    As noted in the response to the previous question, USDA is 
currently drafting proposed amendments to the MOU that extends 
the MOU nationwide.

          c. The MOU states SBA and USDA will meet ``every 3 
        months to measure progress under this MOU.'' Please 
        provide the Committee with a list of all the locations 
        and dates of all meetings between USDA and SBA as 
        required by this portion of the MOU.

    RESPONSE: SBA and USDA have met on numerous occasions to 
implement and discuss our collaboration under this MOU. 
Meetings specific to ``measuring progress'' include, but are 
not necessarily limited to, those shown in the following table:



------------------------------------------------------------------------
                 Location                               Date
------------------------------------------------------------------------
USDA National Headquarters, Washington DC                August 29, 2010
------------------------------------------------------------------------
USDA National Headquarters, Washington DC              September 9, 2010
------------------------------------------------------------------------
USDA National Headquarters, Washington DC                 April 25, 2012
------------------------------------------------------------------------
Small Business Administration,                          January 23, 2013
 Headquarters, Washington, DC
------------------------------------------------------------------------
Small Business Administration,                            March 12, 2013
 Headquarters Washington, DC
------------------------------------------------------------------------


    In addition to the meetings shown above, the MOU has 
fostered an additional number of collaboration opportunities 
between USDA and SBA. For example, the two agencies co-hosted 
six investment roundtables (as discussed previously in response 
to another question). These roundtables enabled both agencies 
to reach out in a collaborative effort to their respective 
stakeholders to identify new opportunities for leveraging each 
other's programs. In addition, USDA State Offices frequently 
collaborate with SBA Regional Offices to conduct outreach and 
meet regularly to discuss new partnership opportunities, 
including joint lending for individual projects. Each agency's 
unique lending parameters facilitate leveraging opportunities. 
For example, a rural business can use a B&I loan guarantee for 
the purchase of real estate and use a SBA guarantee for working 
capital or equipment.

          d. Under the MOU set to expire in April 2013, please 
        explain the factors used to measure progress and any 
        best practices ascertained under this MOU.

    RESPONSE: USDA conducted two surveys in 2011 and determined 
that there was significant collaboration happening between USDA 
and SBA. The survey questions asked respondents about their 
collaborative efforts with SBA and the factors measured 
mirrored the expectations outlined in the MOU. For example, the 
survey asked respondents about how many projects and trainings 
they conducted jointly with SBA. For a full list of factors, 
see the survey summary above.

    The survey results showed that all respondents collaborated 
with SBA. In fact, in June 2012, GAO agreed that the survey 
results demonstrated significant collaboration between USDA and 
SBA and closed its inquiry on the subject, stating that USDA 
fully implemented its recommendation to increase collaboration 
with SBA.

    Best practices reported through the survey include:

    <bullet> Participating in networks of Federal, state, and 
local economic development organizations that host monthly 
conference calls to discuss key issues and areas for 
collaboration;

    <bullet> Co-hosting regular, joint outreach and training 
meetings; and

    <bullet> Co-hosting statewide conferences.
                      Memorandum of Understanding


                              between the


                   U.S. Small Business Administration


                                and the


                     U.S. Department of Agriculture


                                PURPOSE

    The U.S. Small Business Administration (SBA) and the U.S. 
Department of Agriculture (USDA), acting through the Rural 
Business-Cooperative Service (RBS or Rural Development) 
(together the ``Agencies'' or the ``Parties''), believe that 
there are people and places in rural areas and small 
communities with underserved financial needs, especially 
current and prospective small businesses owned by minorities, 
women, and veterans, that would benefit from a joint effort by 
the Agencies to encourage sustainable growth and development 
financed by loans guaranteed by SBA and by loan guarantees, 
loans, and grants by RBS. The Agencies intend to coordinate 
their programs to assist small businesses in underserved rural 
areas. Each Agency will apply its expertise and experience 
according to its legislative mandate.

    The Agencies enter into this Memorandum of Understanding 
(MOU) to better serve rural areas by:

    1. Improving opportunities for small businesses to start 
and grow;

    2. Coordinating the delivery of development programs;

    3. Increasing the number of small business loans guaranteed 
by SBA and RBS;

    4. Developing relationships with Federal, State, county, 
and local agencies; private organizations; and commercial and 
financial institutions to facilitate and support the 
development of strong rural businesses; and

    5. Fostering and supporting sustainable development, 
livable wage jobs, and quality of life objectives and 
principles.

    The Agencies intend to fist begin the cooperative efforts 
discussed in this MOU within the 10 States listed in Attachment 
A. The Agencies will meet every 3 months to measure progress 
under this MOU, including results and best practices and to 
roll-out this initiative nationwide.

                               BACKGROUND


                    Department of Agriculture (USDA)


    RBS is one of the Agencies reporting to the Under Secretary 
for Rural Development. RBS offers many programs (``Business 
Programs'') to promote small business development, including 
direct and guaranteed loans and grant assistance. These 
programs are authorized under the Consolidated Farm and Rural 
Development Act, the Food Security Act of 1985, and the Rural 
Electrification Act of 1936.

    RBS administers the Business Programs through a network of 
State Offices and field offices. Rural Development State 
Directors administer the Business Programs in the individual 
States. One such program is the Business and Industry Guarantee 
Loan Program (B&I) which guarantees quality loans made by 
lending institutions.

                  Small Business Administration (SBA)


    SBA acts under the Small Business Act of 1953, as amended, 
and the Small Business Investment Act of 1958, as amended, to 
aid, counsel, assist, and protect the interests of small 
business. SBA guarantees loans and provides business 
development assistance to small businesses. SBA administers its 
programs through district offices throughout the United States. 
SBA provides additional services through its network of 
resource partners; the Small Business Development Centers 
(SBDC), SCORE, U.S. Export Assistance Centers (USEAC), Women's 
Business Centers (WBC), and Veterans Business Outreach Centers 
(VBOC).

                                 SCOPE


    Many rural parts of the country have suffered decades of 
poverty reflected in unemployment and underemployment rates in 
excess of 20 percent. Shifting demand, global competition, and 
changing demographics have escalated the conditions that cause 
pockets of persistent poverty, loss of jobs, and declining 
population and investment capital in many rural areas. SBA and 
RBS intend to work together to stimulate small business 
creation and expansion in rural areas.

    SBA and Rural Development each intend to use their 
respective resources to provide small businesses in rural areas 
with loan guarantees and technical assistance in an effort to 
help build diverse and sustainable economies, reverse 
population decline, create and sustain jobs, and improve 
quality of life. When possible, the Agencies will coordinate 
efforts with State, county, and local agencies; private 
organizations; financial institutions; industry associations; 
and local organizations, such as Chambers of Commerce and 
community development organizations. SBA resource partners, 
universities including Historically Black Colleges and 
Universities, and other education institutions may be asked to 
participate in various ways as SBA and RBS work together to 
help rural businesses start and grow.

    Through the cooperation outlined in this MOU, the Agencies 
will support smart growth strategies to enhance the livability 
and sustainability of rural communities, combat sprawl, and 
promote growth that strengthens and diversifies rural 
economies.

    Both Agencies realize that some joint training and outreach 
activities contemplated in this MOU may be subject to 
additional negotiation and a separate signed agreement pursuant 
to SBA's cosponsorship authority (15 U.S.C. Sec. 633(h)).

                         AREAS OF COLLABORATION


    RBS and SBA intend to coordinate delivery of their 
respective programs to rural areas by joint activities which 
may include, but are not limited to, the following:

                         Marketing and Outreach


    1. Each Agency's field offices intend to advise potential 
small business borrowers of the other Agency's credit programs 
that may support all or a portion of the small business' 
financing needs. RBS and SBA field offices will exchange 
promotional and reference materials, including brochures and 
training schedules, and will distribute the other Agency's 
information to its field network and its potential applicants 
when appropriate.

    2. Each Agency's field offices intend to coordinate 
referrals of small business applicants to one another when 
appropriate and consistent with each Agency's mission.

    3. Each Agency intends to coordinate its outreach to local 
and national financial institutions to increase awareness of 
the relevant SBA and RBS programs of the Agencies and the 
special characteristics of and potential for economic 
development in areas, subject to availability of funds.

    4. Both RBS and SBA will encourage their networks of 
resource partners to refer rural businesses to the other 
Agency's resources, where appropriate. Rural Development's 
network includes National and State Rural Partnership Councils, 
State and sub-State Offices, and Appropriate Technology 
Transfer to Rural Areas. SBA's network includes Small Business 
Development Centers, SCORE Chapters, U.S. Export Assistance 
Centers, Veteran Business Outreach Centers and Women's Business 
Centers. By mutual agreement, USDA and SBA may identify 
pairings of State and district offices to explore mutual best 
practices available to serve clients.

    5. The Agencies intend to develop working relationships 
with other Federal, State, county, and local agencies; private 
organizations; and educational and financial institutions to 
facilitate and support the development of strong rural 
businesses.

                           Use of Technology


    6. The Agencies will link to each other's Internet Home 
Pages. Each Agency will ensure that the locations and addresses 
of the other Agency's field offices may be accessed from its 
Web site. To the extent available and practicable, other 
technology links will be explored and implemented by mutual 
consent.

                         Agency Cross Training

    7. Each Agency, to the extent practical and to the extent 
funds are available, intends to develop joint field training 
seminars and provide representatives to explain programs, 
credit analysis techniques, and processing and servicing 
policies to the staff of the other Agency during these training 
seminars.

                       Joint Lending Engagements


    8. SBA and RBS would like to explore ways each Agency may 
capitalize on the strengths of the existing SBA and RBS loan 
program processes and procedures already established by each 
Agency, such as delegated lending authority and lender 
oversight requirements.

               Local/Regional Food Supply Network Lending


    9. SBA and RBS would like to exchange information and 
discuss ways to increase lending to food processors and other 
borrowers who play a role in the local food supply chain.

                   Harmonizing Loan Program and Forms


    10. In order to serve the largest number of rural 
businesses as efficiently as possible, SBA and RBS will explore 
the possibility of making their financial programs more 
complementary, such as minimizing differences in program fees, 
and processing and closing procedures, to the extent permitted 
by the statutes and regulations which govern the respective 
programs. Any harmonization efforts will be documented through 
a separate written agreement.

                     Program Management and Review


    11. At least semiannually, each SBA District Director, 
Branch Manager, or designee will meet with his/her counterpart 
Rural Development State Director or designee to review previous 
joint activities and outline additional cooperative efforts. 
They should initiate, in cooperation with local organizations, 
at least one special joint project each year to support the 
growth and development of rural businesses in their districts.

    12. SBA District Directors and Rural Development State 
Directors will designate a senior staff member to implement the 
special projects under this MOU and coordinate service 
delivery.

    13. At least annually, SBA's Associate Administrator for 
Field Operations, USDA's Administrator for Business and 
Cooperative Programs, and RBS's Deputy Administrator for 
Business Programs or their designees will review the previous 
year's joint activities and outline additional cooperative 
efforts.

                    TERM, AMENDMENTS AND TERMINATION


    This MOU will take effect on the date of execution and will 
remain in effect for 3 calendar years, at which time the 
Parties may extend the MOU for an additional 2 years by mutual 
written agreement. The Parties may amend this MOU at any time 
by mutual written agreement. Either Party may terminate this 
MOU upon giving 60 days written notice to the other Party. This 
agreement is subject to available funding and applicable 
statutes and regulations.

                            CONTACT PERSONS

    For SBA, the Associate Administrator for Field Operations 
will be the officer responsible for this MOU. For RBS, the 
Deputy Administrator for Cooperative Programs will be the 
responsible officer.

                               SIGNATURES

    The following individuals have authority to commit their 
respective Agencies to the terms of this MOU.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Attachment A


                             LIST OF STATES


    Arkansas
    Indiana
    Iowa
    Kansas
    Louisiana
    Maine
    Michigan
    Minnesota
    New Mexico
    Nevada
    North Carolina
    North Dakota
    Ohio
    Oregon
    Virginia
    Vermont
    Washington
     A S B D C - Association of Small BUsiness Development Centers


                              REPRESENTING


                             AMERICAS SBDC


                              Statement of


                               C. E. Rowe


                             President/CEO


           Association of Small Business Development Centers


                      Hearing on GAO Report 12-819


                      Committee on Small Business


                      US House of Representatives


                             March 20, 2013

    Chairman Graves, Ranking Member Velazquez, Members of the 
Committee, thank you for the opportunity to submit testimony on 
the Government Accountability Office's (GAO) report on 
Entrepreneurial Assistance Programs (GAO-12-819).

    As you know, for over 30 years the Small Business 
Development Centers has been providing front line services to 
entrepreneurs and small business owners while growing and 
developing an infrastructure dedicated to assisting all small 
business owners and providing them free one-to-one consulting 
and advice on how to improve, finance, market and manage their 
businesses. The result of our efforts and the support of our 
host states and institutions has been the establishment of a 
nationwide network of nearly 1,000 locations with over 4,500 
dedicated professional business advisors that annually assist 
hundreds of thousands of small businesses and entrepreneurs of 
every conceivable type in every state and territory.

    Today's hearing focuses on GAO's report on the need to 
improve program collaboration, data tracking and performance 
management. At SBDCs we focus on those concepts every day and 
have been for decades. Program accountability is a basic tenet 
of our accreditation process as authorized in the Small 
Business Act. Each SBDC must develop and implement a strategic 
plan focused on continuously improving services and skills to 
provide to their clients--the small business community--with 
high value, up-to-date and needed services. SBDCs provide 
assistance to small business of all types, all demographics and 
all regions, but, those services can't be stagnant our 
unresponsive to market, national or global changes. We are 
always expanding and improving our services in an effort to 
support the growing needs of the small business sector and to 
adapt to a changing business environment.

    We have evolved a very specific evaluation criteria that 
rely upon the confirmation and attribution of the entrepreneurs 
and small business owners we work with every day, often for 
extended periods, because they are the only ones truly able to 
knowledgeably comment.

    Each SBDC has performance goals on job creation, sales 
growth, capital infusion and business starts. All of this used 
to monitor the progress and quality of services provided to 
small business. These services must be timely, appropriate for 
the business and directly linked to the improvement or business 
results, or we won't report the outcome.

    Every SBDC undergoes a program review from SBA program 
managers annually. They undergo a financial review from SBA 
analysts every two years and an in-depth Accreditation review 
every five years. These reviews are focused on program 
performance, marketing and attention to meeting needs of our 
local small businesses and ensuring quality and consistency in 
SBDC services.

    To support quality management, SBDCs constantly track and 
monitor the work they do and the services they provide in order 
to ensure the value to the small business client. Each client 
meeting or electronic exchange are recorded in their database 
and used to monitor progress as well as obtain timely feedback. 
The client's progress and results are measured as well, not by 
our staff but by the client. For the past ten years, the ASBDC 
has commissioned an independent research project on the 
effectiveness and efficiency of SBDC assistance. This is in 
addition to the research that every program conducts throughout 
the year.

    Unfortunately, all of our goals and metrics don't appear in 
the GAO report. In Appendix III, only the ``capital infusion'' 
and ``business starts'' goals of the SBDC program are reported. 
Our ``job creation'' and ``sales growth'' goals are not. ``Cost 
per business start'' and ``Cost per job supported'' are shown 
but, those aren't goals. They are measurements from outcomes 
and support, though they do stem from the goals.

    The value of the SBDC networks' efforts to apply metrics 
and performance management is reflected in the studies of SBDC 
client success. In particular, GAO cites the SBA study by 
Concentrance in Appendix V. That longitudinal survey detailed 
the results of SBDC assistance and confirmed the results of the 
annual ``Economic Impact of SBDC Counseling Activities'' in 
which SBDCs participate. Those results are all based on our 
goals of sales growth, job creation, capital infusion and 
business starts.

    The ASBDC Members agree with GAO that collaboration between 
government programs is a good idea. We strive to work with 
other programs to achieve better results for the small business 
community. That is why you will see that SBDCs are twice 
mentioned in the examples provided by GAO of ``illustrative 
Examples of Economic Activities''. We also can provide the 
Committee with examples of our collaboration with the Delta 
Regional Authority in Tennessee and Missouri; the US Department 
of Commerce in Maryland, New York, and Oregon; or the US 
Department of Agriculture in Texas and Iowa--just to name a 
few.

    Despite that, SBDC lack of coordination with the USDA Rural 
Business Enterprise Grant (RBEG) Program was mentioned 
specifically in the report. This is inconsistent with the 
general attitude among SBDCs to do what is best for the client 
using whatever resources are available. Other programs are 
often identified through our Accreditation process as SBDC 
Stakeholders because of the active coordination in support of 
the small business sector.

    It is true that SBA, SBDCs and the USDA RBEG Program don't 
have shared policies and procedures. However, the lack of 
shared policies and procedures in this case isn't due to a lack 
of collaboration.

    First, SBA doesn't manage SBDCs in a ``top down'' fashion. 
SBA provides guidance on program requirements and services, 
sets goals, and reviews performance. SBDCs and SBA work to 
develop national programs like the programs for veterans but, 
in the main SBDCs operate in response to local/regional small 
business needs and concerns.

    Second, SBDCs (particularly those serving rural states like 
Iowa) are fully aware of the RBEG program. Several SBDCs 
receive RBEG funding but, RBEG is a competitive grant program 
funding rural economic development projects. SBDCs often apply 
and win awards, but, the funding can't be considered steady. 
Also, because it is a competitive grant program it has a 
distinctly different purpose from SBDCs.

    Regardless, the goal of ASBDC's testimony isn't to 
criticize GAO. We think this report speaks to a serious issue 
and raises important questions. Frankly, the task GAO undertook 
was enormous. Giving an overview of 52 programs is a lot of 
work if you simply categorize those programs. That effort is 
only complicated by trying to define ``economic development'' 
in each of the targeted areas and apply performance metrics to 
that definition. To understand the inter-relationships that 
exist in 50 states, individual districts and territories as 
well as the local communities seems insurmountable.

    Our goal is to focus on one corner--SBA and SBDCs in the 
context of the report. We can't speak to other programs and how 
they perform, but, we know that SBDCs are regularly reviewed, 
regularly assessed for performance, challenged by goals and 
focused on leveraging the resources of other programs to 
enhance our impact. We agree with GAO's findings--data 
tracking, goal setting, performance management and 
collaboration are the fundamental keys to success of any 
economic development program. To that end, we have attached a 
chart outlining how SBDCs apply the best practices in GAO's 
report. That's the path the SBDC networks have been following 
for years and will continue to follow.

    Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
